<html>
<title> - HAS THE DEPARTMENT OF HOMELAND SECURITY IMPROVED ITS ABILITY TO MAINTAIN SITUATIONAL AWARENESS SINCE HURRICANE KATRINA?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   HAS THE DEPARTMENT OF HOMELAND SECURITY IMPROVED ITS ABILITY TO  
                          MAINTAIN SITUATIONAL
                   AWARENESS SINCE HURRICANE KATRINA?

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2007

                               __________

                           Serial No. 110-51

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________
                  U.S. GOVERNMENT PRINTING OFFICE
48-925                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
BENNIE G. THOMPSON, Mississippi (Ex  PETER T. KING, New York (Ex 
Officio)                             Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    14
The Honorable Bobby Jindal, a Representative in Congress From the 
  State of Louisiana.............................................    47
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State Colorado.............................................    11

                               Witnesses
                                Panel I

Mr. Frank DiFalco, Director, National Operations Center, Office 
  of Operations Coordination, Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Sttement..............................................     5

                                Panel II

Mr. Darrell L. Darnell, Director, District of Columbia, Homeland 
  Security and Emergency Management Agency:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Colonel Terry J. Ebbert, USMC (Ret), Director, Office of Homeland 
  Security & Public safety, city of New Orleans:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Ms. Eileen Larence, Director, Homeland security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. James M. Walker, Jr., Director, Alabama Department of 
  Homeland Security:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42


                     HAS THE DEPARTMENT OF HOMELAND
                    SECURITY IMPROVED ITS ABILITY TO
                     MAINTAIN SITUATIONAL AWARENESS
                        SINCE HURRICANE KATRINA?

                              ----------                              


                        Wednesday, June 20, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                 Subcommittee on Management, Investigations
                                             and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1 p.m., in room 
1539, Longworth House Office Building, Hon. Christopher Carney 
[chairman of the subcommittee] presiding.
    Present: Representatives Carney, Clarke, Perlmutter, 
Rogers, and Jindal.
    Mr. Carney. [Presiding.] The Subcommittee on Management, 
Investigations and Oversight will come to order.
    The subcommittee is meeting today to receive testimony on 
``You Don't Know What You Don't Know: Has the Department of 
Homeland Security Improved Its Ability to Maintain Situational 
Awareness Since Hurricane Katrina?''
    In the early morning hours of August 29, 2005, Katrina's 
waters overwhelmed the levees around New Orleans and began to 
fill the city. The National Weather Service knew it and 
reported it. The Transportation Security Administration knew it 
and reported it. Local officials knew it and reported it. 
Indeed, throughout the day of landfall, Federal, state, local 
and even nongovernmental organizations all were issuing reports 
that detailed the unfolding catastrophe.
    Yet somehow the Homeland Security Operations Center, what 
DHS called the ``nation's nerve center for information sharing 
and domestic incidents management,'' did not get or did not 
process the message.
    That evening, even as the National Weather Service was 
urging New Orleans residents fleeing to their attics to take an 
axe or a hatchet with them so they can cut their way onto the 
roof to avoid drowning, the HSOC issued a situation report to 
the secretary of homeland security and to the president that 
said, ``Preliminary reports indicate the levees in New Orleans 
have not been breached.''
    Katrina was the HSOC's first major test, and it failed.
    But we are not here today to revisit those mistakes. 
Instead, we are here to assess what improvements DHS has made 
to ensure that they do better next time.
    I am pleased to say that there has been significant 
improvement. Too often, the tendency in Washington is to circle 
the wagons and refuse to acknowledge error, even when it is 
staring you in the face.
    Today, however, we will hear about how it should have been 
done. We will hear about what can happen when career public 
servants do the opposite, when they set pride and ego aside 
into a cold, hard appraisal of what went wrong and how to fix 
it.
    Our first witness is uniquely positioned to give us this 
perspective. He was deputy director of HSOC during Katrina and 
led the difficult effort of trying to right what went wrong. 
The new National Operations Center has not yet faced a test 
even close to Katrina, and we won't really know if all the 
fixes have worked unless or until it does. But I am confident 
that even if some of the changes do not pan out, we are much 
better off today than we were on August 29, 2005.
    Now, I look forward to the witnesses' testimony.
    The chair now recognizes the ranking member from the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you for calling 
this hearing for us to make assessments on what progress we 
have made in this area.
    I first want to thank our witness for being here and the 
witnesses we are going to have on the second panel.
    I especially want to welcome Mr. Jim Walker, the homeland 
security director from my home state of Alabama. Mr. Walker 
will outline a number of new programs in Alabama that include 
streamlining video, as well as a partnership with Google to 
help maintain situational awareness.
    Nearly 22 months ago, Hurricane Katrina ravaged the Gulf 
Coast. To say the least, there was a breakdown in communication 
and leadership in response to Katrina, all of which seriously 
damaged recovery efforts. Several weeks after the storm hit, 
reviews were launched by DHS, the White House, the House 
Bipartisan Select Committee and the Senate Committee. These 
reviews began the process of assessing the failure at all 
levels of government, especially regarding the response to the 
flooding in New Orleans.
    One of those issues was the operations of the department's 
Homeland Security Operations Center. The Katrina investigations 
found a number of failures in how the center performed. In 
response, Secretary Chertoff restructured this function and 
created a National Operations Center. We look forward to 
hearing from our witnesses as to how the new center is 
performing and how it plans to respond to the next disaster.
    We also will hear about model programs at the state and 
local levels to help maintain situational awareness. Hurricane 
Katrina proved, tragically, that collecting and sharing 
information is critical for government agencies when responding 
to disaster. We need to ensure DHS gets it right.
    I would ask unanimous consent that Mr. Jindal from 
Louisiana be allowed to participate.
    With that, I yield back, Mr. Chairman.
    Mr. Carney. Without objection, so granted.
    Members of the subcommittee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    I would like to first welcome our guest, our witness, Mr. 
Frank DiFalco. Mr. DiFalco is currently the director of the 
Department of Homeland Security's National Operations Center. 
He joined the department in May 2004 as the deputy director for 
the Homeland Security Operations Center. Prior to that, Mr. 
DiFalco served for 26 years in the United States Marine Corps, 
where he served as an infantry officer and held a variety of 
command and staff positions. Among other awards, he received 
the Legion of Merit medal and the Bronze Star medal with a 
combat V.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask Mr. DiFalco to summarize his statement for 5 
minutes. Mr. DiFalco?

   STATEMENT OF FRANK DIFALCO, DIRECTOR, NATIONAL OPERATIONS 
   CENTER, OFFICE OF OPERATIONS COORDINATION, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. DiFalco. Good afternoon, Chairman Carney, Ranking 
Member Rogers and distinguished committee members. Thank you 
for the opportunity to testify on behalf of the DHS National 
Operations Center.
    For background, I would like to state that the National 
Operations Center, known as the NOC, is part of the DHS Office 
of Operations Coordination, which is known as OPS, and OPS 
reports directly to the DHS secretary.
    During my time with you today, I will describe the DHS 
OPS's and NOC's missions, explain the composition of the NOC, 
and detail the operational improvements that we have made since 
Hurricane Katrina.
    Homeland security presidential directive 5 identifies the 
secretary of homeland security as the principal Federal 
official for domestic incident management. The DHS mission 
includes the responsibility to lead the unified national effort 
to secure America. Likewise, OPS is an operations staff 
directorate.
    The mission of OPS is directed by Vice Admiral Roger Rufe, 
United States Coast Guard, retired. The mission is to integrate 
DHS interagency planning in operations coordination in order to 
prevent, protect, respond and recover from terrorist threats or 
attacks, or other manmade or natural disasters.
    The NOC is a 24/7 multi-agency operations center. The 
mission of the NOC is to be the nation's primary national-level 
hub for domestic situational awareness, common operating 
picture, information fusion, information sharing, 
communications and operations coordination pertaining to the 
prevention of terrorist attacks and domestic incident 
management.
    Also, the NOC serves as a national fusion center, 
collecting and immediately fusing all source information to 
quickly determine if there is a terrorism nexus and shares all 
threats and all hazards information across the spectrum of 
Federal, state, local, tribal, private sector and other 
homeland security partners.
    The NOC was officially established on May 25, 2006, with 
the approval of the national response plan notice of change, 
and it is codified in section 515 of the Homeland Security Act 
of 2002 that states that the NOC is the principal operations 
center for DHS and shall provide situational awareness and 
common operating picture for the entire Federal Government and 
for state, local and tribal governments as appropriate in the 
event of a natural disaster, act of terrorism, or other manmade 
disaster, and to ensure that critical terrorism and disaster-
related information reaches government decision makers.
    The NOC enables the DHS secretary and other leaders to make 
informed decisions and identify courses of action during an 
event or threat. The NOC is comprised of five elements: the 
NOC-Watch, the NOC intelligence and analysis, FEMA's National 
Response Coordination Center, the Office of Infrastructure 
Protection's Coordinating Center, and the NOC planning element, 
which is known as the Incident Management Planning Team.
    Since 9/11 and Hurricane Katrina, the Federal Government 
has done a tremendous amount to ensure that there are improved 
and better coordinated efforts undertaken to manage all threats 
and all hazards incidents. For example, at DHS, we have 
instituted improved policies, processes, procedures, training 
programs, and systems to better enable the department to 
function in support of the secretary as the domestic incident 
manager. The capabilities developed are based on an incremental 
approach and is fueled by interagency cooperation.
    Major examples include: establish the DHS Office of 
Operations Coordination; establish the NOC; establish a common 
operating picture known as the COP, which is accessed via the 
Homeland Security Information Network by Federal and state 
partners; assign information responsibilities to interagency 
partners; identify and collect the critical information 
requirements to better provide key incident information to 
decision makers; institutionalize the structure and processes 
for information flow from the field to the national level; 
establish the permanent planning operations staff within the 
NOC called the Incident Management Planning Team, who develops 
national concept plans and provides planning training to the 
interagency; automate the data entry for incident reports in 
geospatial displays; and establish and maintain the 
communications system; deploy and resource a national planning 
execution system; establish the DHS crisis action process and a 
phased notification system; establish a NOC training program 
that includes daily shift drills and is expandable to include 
DHS and interagency operations centers; provide training to the 
interagency PFOs and state emergency management personnel on 
HSIN and COP reporting; participate in major exercises like 
Ardent Sentry that tested operations processes, procedures and 
tools like the COP; organize and develop groups to facilitate 
interagency coordination that include the operations 
coordination group, the operations centers work group, the 
senior leadership group, COP users working group, HSIN 
Management Coordinating Council, HSIN Advisory Council, and 
daily NOC coordination calls; led the DHS participation at the 
White House Homeland Security Council's domestic readiness 
group policy coordination committee; and conducted mission 
blueprint analysis by outside experts to look at policies, 
procedures, processes and organizations and technologies to 
define the OPS and NOC way forward.
    While a lot of improvements have been made, there is much 
work to be done to continuously improve the unity of effort and 
operational capabilities in order to ensure mission 
accomplishment. We have taken the post-Katrina recommendations 
provided by Congress, the White House, and the GAO very 
seriously and are making enhancements to DHS operations.
    We appreciate the recommendations GAO has recently offered 
regarding DHS Op Centers, including, one, our collaborative 
practices; two, that there are no major barriers to executing 
our mission; and three, the report conclusions including the 
importance of defining common outcomes and joint strategies.
    Mr. Perlmutter. [Presiding.] Mr. DiFalco, if you could wrap 
up please, sir.
    Mr. DiFalco. Yes, sir.
    In addition, we look forward to providing additional tours 
and briefs to the GAO and Congress to enhance visibility on OPS 
and the NOC.
    This concludes my oral statement. I am glad to answer any 
questions.
    [The statement of Mr. DiFalco follows:]

                  Prepared Statement of Frank DiFalco

    Good morning, Chairman Carney, Ranking Member Rogers, and Members 
of the Subcommittee. I am Frank DiFalco, Director of the National 
Operations Center (NOC) at the U.S. Department of Homeland Security 
(DHS). Thank you for inviting me to discuss what DHS, the Office of 
Operations Coordination (OPS), and the NOC have done to increase 
situational awareness within DHS and among the interagency 
stakeholders, streamline the information flow process during incidents, 
and improve our contingency and crisis action planning efforts.
    As way of background, I would like to briefly describe the roles of 
OPS and the NOC. The mission of OPS, which is directed by retired VADM 
Roger Rufe, USCG, is to integrate DHS and interagency planning and 
operations coordination in order to prevent, deter, protect, and 
respond to terrorists threats/attacks or threats from other man-made or 
natural disasters. The NOC is a 24x7, multi-agency operations center 
that collects all-threats and all-hazards information across the 
spectrum of federal, state, local, tribal, private-sector, and other 
key sources. Its mission is to be the primary national-level hub for 
domestic situational awareness, common operating picture, information 
fusion, information sharing, communications, and operations 
coordination pertaining to the prevention of terrorist attacks and 
domestic incident management.
    DHS takes these missions and the overall responsibilities laid out 
in the Homeland Security Act and various Homeland Security Presidential 
Directives seriously. We work every day of the year to ensure the 
situational awareness needs of DHS, other federal agencies, state and 
local partners, and other homeland security stakeholders are met. As 
you know, this is an evolving process. Lessons learned from real-life 
incidents and exercises are continually applied to improve the way the 
NOC and other DHS offices work. I hope my time with you today can help 
you better understand how the operations efforts of the NOC work within 
an overarching DHS framework.

``Yesterday''
    Since 9/11 and Hurricane Katrina, the Federal Government has done a 
tremendous amount to ensure there are improved and better coordinated 
efforts undertaken to manage all-hazards incidents. For example, at 
DHS, we have instituted improved policies, processes, procedures, 
training programs and systems to better enable the Department to 
function in support of the Secretary as the Domestic Incident Manager.
    I will spend most of my time with you today relating how DHS, and 
the NOC specifically, has taken positive action prompted by the 
recommendations from Congress, GAO, and the White House. In addition, 
DHS, like other federal departments, looked closely at how we did 
business, and recognized that we have to continuously improve how we 
provide a national unified effort and manage domestic incidents. Since 
Katrina, much progress has been made in providing the Secretary and the 
President with better situational awareness than what was available 
during the time immediately following landfall of Hurricane Katrina.
    For example, at the time of Katrina, the Homeland Security 
Operations Center (HSOC) had responsibility for providing situational 
awareness to the now defunct Interagency Incident Management Group 
(IIMG), while the Incident Management Division, a component of the 
IIMG, had responsibility for coordinating the federal response to the 
incident. The major ``gap and seam'' identified in this instance was 
that the HSOC and IIMG reported through two separate chains of command. 
This resulted in a disjointed information flow and other problems 
relating to situational awareness and incident management. These 
challenges have since been remedied with organizational improvements, 
standardized processes and procedures, interagency coordination at 
several levels, and aggressive training and exercising.
    There are many other examples where DHS and other Federal efforts 
had friction during Katrina. The House, Senate, White House, GAO, DHS 
and other entities have thoroughly reviewed the events surrounding 
Hurricane Katrina and chronicled every step of the process from pre-
landfall to response and recovery efforts. I think the reports and 
their recommendations speak for themselves and provide a needed 
analysis of the Federal, State and local response to this massive 
natural disaster. DHS took these efforts seriously and implemented many 
of the recommendations. For example, OPS is in the process of fully 
implementing the seven applicable White House Katrina lessons learned 
report recommendations summarized below.
        <bullet> Establish the National Operations Center (NOC)
        <bullet> Establish National Information and Knowledge 
        Management System
        <bullet> Establish a National Reporting System
        <bullet> Establish a National Information Requirements and a 
        National Information Reporting Chain
        <bullet> Establish and Maintain a Deployable Communications 
        Capability
        <bullet> Develop and Resource a Federal Planning and Execution 
        System
        <bullet> Establish a Permanent Planning/Operations Staff within 
        the NOC
    These recommendations have greatly enhanced operations and other 
areas of the Department, as well as improved the overall capability of 
the Federal Government to respond to and recover from significant 
incidents.

``Today''
    Over the past year, we have further improved upon the above 
recommendations with lessons learned from real world events and 
exercises. Below, I will provide additional information on each of the 
following key OPS efforts.
        <bullet> The NOC
        <bullet> The Common Operating Picture (COP)
        <bullet> Department Situational Awareness Team (DSAT)
        <bullet> The Incident Management Planning Team (IMPT) and the 
        National Planning and Execution System (NPES)
        <bullet> DHS Crisis Action Process (CAP)
        <bullet> OPS Mission Blueprint
        <bullet> Coordination with Other Federal Partners
        <bullet> Notifications
        <bullet> Training and Exercises

National Operations Center and the Common Operating Picture
    OPS has made significant advancements in many operational matters 
that directly facilitate the Secretary's execution of the Homeland 
Security Act, Homeland Security Presidential Directive (HSPD)-5, and 
HSPD-8 responsibilities. To enable us to more efficiently coordinate 
the offices within the Department and connect them with our interagency 
partners, we established the NOC and are implementing the COP.
    The NOC was officially established on May 25, 2006 with the 
approval of the National Response Plan (NRP) Notice of Change. The NOC 
is comprised of five elements: (1) the NOC Watch, which integrates the 
functions and personnel of the former multi-agency HSOC; (2) NOC 
Intelligence and Analysis, which incorporated the Office of 
Intelligence & Analysis (I&A) intelligence watch and warning element; 
(3) FEMA's National Response Coordination Center (NRCC); (4) the Office 
of Infrastructure Protection's National Infrastructure Coordination 
Center (NICC); and (5) the NOC Planning Element (IMPT), that 
institutionalizes interagency deliberate and crisis action planning 
processes.
    The NOC, in collaboration with the Office of Intelligence & 
Analysis, fuses all-source information to quickly determine if a threat 
or event contains a nexus to terrorism. The NOC functions as a national 
fusion center that synthesizes reporting from State and Local Fusion 
Centers, law enforcement, critical infrastructure, national level 
intelligence, emergency response, and private sector organizations. The 
NOC disseminates homeland security information to senior federal 
officials, appropriate intelligence and law enforcement agencies, and 
to other homeland security partners. The NOC serves as the primary 
focal point for the Secretary and senior administration officials to 
receive domestic situational awareness relating to natural and man-made 
disasters, acts of terrorism, and incident management within the United 
States.
    The COP is the principal situational awareness tool within the NOC 
and is the cornerstone of the National Reporting System. This real-
time, web-based tool ties together key homeland security partners 
primarily at the Federal, State, and Joint Field Office (JFO) levels. 
The COP was the direct result of the Department's internal reviews 
following Hurricanes Katrina and Rita and the White House Katrina 
lessons learned report. It was initially available for the 2006 
Hurricane season and has the following features:
        <bullet> Is accessible through the Homeland Security 
        Information Network (HSIN)
        <bullet> Provides Federal departments and agencies with the 
        capability to share critical information
        <bullet> Establishes an inter-agency common operating database
        <bullet> Develops a shared interagency understanding of the 
        situation
        <bullet> Provides information integrity for reporting 
        requirements
        <bullet> Facilitates timely decision making
    The COP includes functional screens that address the National and 
International Situation Summaries, executive actions, requests for 
information, responder status, chronology of events, critical 
infrastructure, mapping products, media reports, streaming video from 
the incident site, the latest incident updates, metrics, and other HSIN 
information.
    As part of our incremental approach, we are advancing the COP 
capabilities from natural disasters to all hazards and all threats. Our 
``next steps'' are intended to further enhance the COP capabilities 
from exclusively an unclassified, hurricanes/natural disaster centric 
tool to include a classified, all-hazards capability. We are currently 
focusing on the ``worst case'' scenarios for nuclear/radiological 
incidents and will use national exercises and real world events to 
validate and continue its overall development.

Department Situational Awareness Team
    DSATs are made up of DHS personnel who provide key situational 
awareness reporting to incident managers by providing data directly 
from the scene of the incident. This data can include information from 
streaming video which can be posted on HSIN, satellite communications, 
and other tools that provide incident managers vital information in 
near real-time. This capability supports Federal, State, and Local 
domestic incident managers and allows our collective emergency response 
to be coordinated with key homeland security partners such as the 
Principal Federal Official (PFO).

Incident Management Planning Team & National Planning and Execution 
System
    The White House Katrina lessons learned report identified two 
specific recommendations to address planning limitations at the 
national level. The first recommendation called for the creation of a 
permanent planning body within DHS. DHS addressed this recommendation 
through the creation of the Incident Management Planning Team (IMPT). 
The IMPT is an interagency element that develops strategic level 
contingency plans predicated on the National Planning Scenarios. These 
contingency plans unify the interagency prevention, protection, 
response and recovery actions with respect to an event or threat.
    The mission of the IMPT is to provide contingency and crisis-action 
incident management planning through a collaborative, interagency 
process in support of the Secretary's unique responsibilities as the 
principal Federal official for domestic incident management as 
articulated in HSPD-5, the Homeland Security Act of 2002 and other key 
homeland security authorities such as the preparedness functions of 
HSPD-8. It is comprised of two components: (1) a core group of 15 full-
time planning representatives from key DHS elements (e.g., TSA, CBP, 
I&A, FEMA, Coast Guard) as well as other key interagency members (i.e., 
DOD, DOJ, the FBI, HHS, DOT, DOE, EPA and the American Red Cross); and 
(2) an ``on-call'' staff of 38 planners that includes other members 
from DHS as well as the interagency. The IMPT was established in 
September 2006 and its members underwent a robust training program to 
prepare each of them for the planning responsibilities they have been 
asked to execute.
    The IMPT's initial actions have been focused on the development of 
federal interagency concept plans (CONPLANS) that address each of the 
15 National Planning Scenarios. The all-threats and all-hazards 
scenarios include nuclear, chemical, biological, natural disaster and 
cyber incidents. Each plan developed by the IMPT identifies the 
specific actions that individual departments and agencies intend to 
take in the event a given scenario were to occur. The primary value of 
the IMPT is to identify the efforts of the entire interagency in one 
comprehensive document. This planning process serves two distinct 
purposes: it facilitates the ability of Secretary to fulfill his/her 
coordination responsibilities under HSPD-5 by providing awareness of 
the individual capabilities that a specific agency plans to deliver; 
and it also identifies existing seams and gaps that exist within the 
interagency planning efforts for a particular scenario.
    The second recommendation identified the need for a federal 
planning process to unify the planning efforts that occur across the 
interagency. DHS addressed this recommendation through its development 
of the National Planning and Execution System (NPES) which is a formal 
curriculum based planning process used by the IMPT to build interagency 
contingency plans. OPS leadership recognized that the success or 
failure of the IMPT would hinge largely on its ability to develop a 
planning process that could coordinate the efforts of this interagency 
group and facilitate the development of a shared planning culture 
across the federal government. Prior to NPES, few federal departments 
and agencies adhered to a formal planning process that organized the 
operational planning efforts within their respective departments. To 
achieve this goal, OPS created NPES, which integrates current and 
emerging interagency planning ``best practices,'' is consistent with 
the NRP, and adheres to the core concepts and terminology addressed in 
NIMS.
    NPES was converted to a curriculum that was taught to each member 
of the IMPT. The feedback from this training has been overwhelmingly 
positive and has resulted in numerous requests by interagency members 
that this training be offered to others within their respective 
departments and agencies. In addition, many State and Local governments 
have requested copies of the NPES and related training.
    DHS has actively engaged in promoting and sharing NPES throughout 
the interagency to assist in the development of supporting plans. Over 
the past ten months, the IMPT has trained over 500 interagency planners 
on the NPES and more training sessions are scheduled. The DHS Office of 
the Chief Learning Officer (CLO) and the Center for Domestic 
Preparedness (CDP) are currently working with the IMPT to develop an 
accredited NPES Program of Instruction. By formalizing the instruction 
and subsequently offering it at an accredited institution, the NPES 
training will become available to a greater number of planners in the 
near future, advancing its adoption throughout the interagency.

The DHS Crisis Action Process
    The Crisis Action Process (CAP) is a standard process by which DHS 
leadership manages a domestic incident response by following a general 
sequence of events while simultaneously engaging in a continuous cycle 
of actions. Over the past 6 months, in an effort to bolster 
preparations for real-world events, a number of refinements have been 
made to our processes. Two refinements of note are the formalization of 
the Senior Leadership Group (SLG), which the Director of OPS chairs, 
and the establishment of the Crisis Action Team (CAT) to manage 
incidents.
    The SLG is comprised of the various DHS Assistant Secretaries that 
report to the Secretary and other select leaders within DHS. The SLG 
can be convened by the Secretary at any time and its primary purpose is 
to facilitate the Secretary's ability to receive input and 
recommendations from his most experienced leaders during times of 
crisis. When convened during times of crisis, the Secretary can also 
issue initial guidance to the SLG members regarding actions he deems 
appropriate.
    The CAT is the main focus of the Crisis Action Process. The CAT is 
a multi-agency coordination entity comprised of over 60 personnel, many 
from the interagency IMPT, and is designed to facilitate the 
Secretary's ability to coordinate interagency operations for threats 
and incidents in accordance with the responsibilities identified in 
HSPD-5. The CAT provides the Secretary and the Federal government with 
an immediate incident management capability and ensures seamless 
integration of threat monitoring and strategic cross-directorate 
operational response activities. By incorporating guidance from the 
Secretary and SLG into its incident management activities, the CAT is 
able to translate executive level guidance into operational action.
    The CAT's incident management activities include, but are not 
limited to, developing course of action recommendations, conducting 
national level planning, facilitating access to critical resources, 
prioritizing incidents and resources, serving as a central point for 
information collection and evaluation, and coordinating the flow of 
information and resources for complex and/or multiple incidents.

OPS Mission Blueprint Analysis
    OPS conducted a Mission Blueprint Analysis in September 2006. In 
this Blueprint Analysis, we took a hard look at our policies, 
processes, procedures, organization and technologies in order to help 
define the way forward for OPS in order to meet and exceed the 
Department's capabilities required to fulfill HSPD-5, the Homeland 
Security Act, and highlighted in the White House Katrina lessons 
learned review.
    The Blueprint analysis was conducted by an outside team that 
performed a top-down strategic review of the organization, its mission 
capabilities and perceived future requirements. In addition, the team 
also employed a bottom-up assessment of existing capabilities and 
supporting activities. Over 100 individuals within OPS, DHS, and 
throughout the government were interviewed during the course of the 
study. This effort provided analysis and recommendations for ensuring 
OPS more effectively meets its current and emerging integrated mission 
requirements within DHS and across the larger homeland security 
community.

OPS and NOC Coordination within DHS and with Other Federal Partners
    The NOC from its inception adopted an interagency approach to its 
business process. The NOC, through the Homeland Security Information 
Network (HSIN) and COP training programs, the PFO and JFO support 
concepts, the deliberate and crisis action planning processes, and the 
interagency operation directorate and operation center coordination 
working group venues, has recognized that operations coordination is 
very much an interagency enterprise. DHS has engaged in interagency 
coordination at multiple levels and across the core domestic incident 
management functions as the composition of the NOC and IMPT 
demonstrate. Further, the OPS, NOC and COP outreach and training 
initiatives have been interagency focused every step of the way. These 
have proven invaluable in building relationships, developing skill 
sets, identifying and integrating interagency requirements, and gaining 
interagency understanding of the NOC's capabilities and the role the 
NOC plays in order to help prevent, deter, protect, respond and recover 
from terrorists threats/attacks or threats from other man-made or 
natural disasters.
    Also, in order to enhance integration and coordination, we 
established the Daily NOC Elements Conference Call. This conference 
call provides the NOC Element Directors, Operation Centers (Senior Duty 
Officers), and staff members a daily forum to highlight operational 
matters, address process issues, and conduct coordination as 
appropriate.
    Another OPS led effort to enhance DHS and federal operations is 
DHS's Operations Coordination Group (OCG). This forum provides inter 
and intra departmental information sharing at the ``strategic 
operations officer'' level and includes representatives from DOD's 
Joint Director of Military Support, NORTHCOM Joint Staff J-3, National 
Guard Bureau J-3, FEMA, ICE, CBP, USCG, TSA, USSS, and CIS (additional 
members can be added at the discretion of the Group). This homeland 
security body enhances information flow and ensures that issues 
regarding planning, training, exercises, and incident management are 
properly coordinated in a timely manner. This semi-formal process with 
established agency and department representation helps foster needed 
interactions and feedback from peers on operational matters.
    Likewise and under the umbrella of the OCG, the NOC led the effort 
to establish the DHS Operations Centers Working Group. The purpose of 
this group is to establish an Operations Centers venue to share 
information, address major issues, integrate efforts, enhance 
coordination, build relationships, and increase overall operational 
effectiveness. While this group is initially comprised of DHS OPS 
Centers, the intent is to expand the group into an interagency forum.
    The partnership between the NOC and FBI is growing at a steady 
pace. For example, the NOC provides Patriot Reports to the FBI which 
have been useful in developing case leads. These reports often contain 
unique information provided to the NOC by private citizens. In 
addition, the FBI has addressed technology issues that inhibited access 
to their Secret level pre-case data system, Guardian, allowing full use 
to the NOC. The Program Manager for the developing unclassified version 
of the system, known as eGuardian, has worked closely to facilitate NOC 
access and use of that system when it comes on line, including the 
designation of the NOC as one of the pilot sites.
    DOD's NORTHCOM, or Northern Command, has developed as a clear 
mission partner with DHS and the NOC is the common point of entry 
between the two organizations. NORTHCOM leadership has visited the NOC, 
and vice versa, and information sharing is routine--each entity 
displays the other's common operating picture. DOD is becoming 
increasingly integrated into the NOC COP during an incident providing 
the best form of information sharing as early as possible. In addition, 
OPS has detailed a member of the Senior Executive Service to be the 
Department's representative at NORTHCOM and NORTHCOM has provided a 
senior representative to DHS.

Notifications
    Notifications are a critical NOC function and as part of an ongoing 
review of its processes and procedures, OPS implemented the DHS 
Operational Phase System on March 1, 2007. The four operational phases 
under which the NOC now operates are: Steady-State; Phase 1--Awareness; 
Phase 2--Concern; and Phase 3--Urgent. The new system enables 
recipients to quickly understand the conditions of the situation for 
which they receive a notification message, understand the corresponding 
severity of the event/threat, and provide key information in 
standardized formats.

Training and Exercises
    We have recently established a comprehensive NOC Training Program. 
The NOC Training Program consists of daily (one per shift) operations 
drills that enhance the NOC's capability to detect and evaluate events, 
conduct the proper notifications, develop deliverables, and execute 
national level reporting responsibilities. The NOC plans to expand its 
training program to involve DHS and interagency operations centers.
    The NOC has come a long way since Katrina. However, just having new 
tools, programs and processes are not enough. It is vital to 
participate in exercises and table-top discussions to validate current 
efforts and to integrate lessons learned. The NOC participates in major 
exercises and uses these venues to accomplish training and exercise 
objectives and spearhead operational improvements. In particular, 
during the month of May 2007, OPS and other DHS components participated 
in the DOD exercise Ardent Sentry which was designed to test and 
validate DOD Homeland Defense operations and Defense Support to Civil 
Authorities (DSCA) operations. Ardent Sentry consisted of numerous 
scenarios for which OPS had established roles and responsibilities. Two 
scenarios provided significant OPS participation including a hurricane 
making landfall in Rhode Island and a 10 kiloton nuclear detonation in 
Indianapolis, Indiana.
    In regards to the hurricane scenario, OPS was able to exercise 
national information flow and test the ability of the NOC and all its 
elements to prepare, coordinate and publish situation reports (SITREPS) 
and executive summaries (EXSUMS) before the 2007 hurricane season. The 
10 kiloton explosion allowed for testing the DHS CAP, testing the CAT 
concept of operations, testing the IMPT's Improvised Nuclear Device 
Contingency Plan, and developing the classified COP requirements that 
include secret, law enforcement, and proprietary information. Finally, 
this was an excellent opportunity to exercise together with NORTHCOM 
and keep DHS and DOD on track to improve our national incident 
management capability.

Information Flow_Hurricane Example
    To help provide some additional information on how our tools, 
policies and procedures are brought to bear in an incident, I will 
illustrate what happens when possible hurricane approaches. If a 
Tropical Wave, Depression, or Storm is projected or forecasted to 
impact the United States or a U. S. Territory, the first step the NOC 
will take is to transition to Phase 1--Awareness. Upon this transition, 
the NOC will transmit a DHS notification message, prepare and 
disseminate a NOC Incident Report, and establish a National Situation 
Summary on the COP. The NOC will maintain and continually update the 
COP and also disseminate NOC Update Reports at 0600 and 1800 daily.
    When a Hurricane or severe Tropical Storm is projected or 
forecasted to impact the United States or a U.S. Territory, the NOC 
will transition to Phase 2--Concern. Upon this transition, the NOC will 
conduct the same actions for a Tropical Wave, Depression, or Storm. In 
addition, EXSUMs will be initiated and disseminated at 0600 and 1800 
daily. SITREPs will commence when the Hurricane or severe Tropical 
Storm is 24 hours from landfall and will be disseminated at 0600 and 
1800.
    Although the NOC may transition to Phase 3--Urgent due to the 
projected severity at landfall of a Hurricane or severe Tropical Storm, 
no differences exist between Phase 2 or 3 reporting or information 
requirements. The primary differences that do exist between Phase 2 and 
3 involve operational posturing. For example, the Crisis Action Team 
will most likely be activated during an event that would meet the Phase 
3 threshold.
    When a tropical event ends or no longer poses a significant threat 
to the United States or a U.S. Territory, the NOC will transition back 
to the Steady State Phase and will transmit a close-out DHS 
notification message and terminate reporting.

Conclusion
    Mr. Chairman, please know that DHS is committed to ensuring that 
all possible steps are being taken to address the various threats and 
incidents that can endanger our citizens. DHS will continue to work 
together with all partners across the homeland security spectrum, 
including Congress, to ensure the best policies, practices, processes, 
and technologies are integrated into the daily DHS operations 
framework.
    The efforts described earlier, like the COP and the NPES, are now 
part of the day-to-day operations of DHS, OPS, and the NOC. They allow 
for better national reporting, situational awareness, information 
sharing, operations coordination, unity of effort, and mission 
accomplishment for all-threat and all-hazard events. We will 
continually enhance our efforts and operational effectiveness by 
implementing lessons learned during real-world events and exercises.
    Thank you for this opportunity to testify today and I look forward 
to answering your questions.

    Mr. Perlmutter. Thank you. I want to thank you for your 
testimony.
    I will remind each member that you will have 5 minutes to 
question Mr. DiFalco.
    Now, I will recognize myself for 5 minutes.
    Mr. DiFalco, we know that during Hurricane Katrina, HSOC 
received reports of massive flooding and levee breaches from 
numerous sources. We also know that the director of the HSOC 
and other senior DHS officials were not aware of either the 
reports or the flooding itself. What we don't know is what 
happened in the layers between where the reports come into the 
HSOC and where they are sent to the senior leadership.
    Why didn't the reports reach the officials, if you know?
    Mr. DiFalco. When the reports came in during Katrina, it 
was basically 35 to 40 agencies forwarding their situation 
reports, sending them in. We were sorting through them there.
    Since then, we have developed a common operating picture 
and information management program to make sure that key 
information that comes in gets put on the common operating 
picture so it is available for everybody to see at real-time, 
because it is on the Homeland Security Information Network. So 
everybody can see it real-time. We know it is in. We are able 
to check it and confirm it with other agencies that are 
providing reports.
    In addition to that, we have outfitted the National 
Operations Center with information knowledge management 
officers--excuse me--incident management officers that monitor 
the common operating picture in these reports that come in.
    Additionally, part of the common operating picture is a 
spot report forward, and the sport report is a report of 
something that is urgent that comes in that cannot wait until 
the next reporting cycle. It goes up on nat boards for everyone 
to see also.
    So we have taken steps to make sure that information that 
comes in gets highlighted, while we are de-conflicting it. So 
it is being passed and everybody is seeing it at the same time 
while we are trying to either de-conflict the information or 
confirm it.
    Mr. Perlmutter. ``De-conflict'' meaning there are different 
kinds of reports coming in to you and you are trying to figure 
out which one is correct? What do you mean by ``de-conflict''?
    Mr. DiFalco. Yes. An example during Katrina was that the 
levees were breached. OK, well, some of the reports that came 
in said they were toppled. Some said that they weren't 
breached, but they had breaks in them that were letting water 
through, but there wasn't a complete breach. In that case, we 
were trying to confirm it with the U.S. Army Corps of Engineers 
to see exactly what the situation was.
    Sometimes the information comes in and it is opposite. It 
says there is no breach and there is a breach, as an example. 
So, OK, we don't know what is ground truth. The systems and the 
information integrity pieces we put in place for the common 
operating picture and for basically national reporting for a 
hurricane identifies subject matter experts who provide the 
information. So if we get information from a different source, 
we are able to go to them more quickly and de-conflict or get a 
confirmation on that particular part of the information.
    Mr. Perlmutter. OK. Thanks.
    I am glad to hear of improvements that have been made using 
this COP program in the National Operations Center, and I look 
forward to further improvements. But I am concerned about NOC's 
use of this common operating picture through HSIN, through the 
Homeland Security Information Network.
    Recently, we had a hearing and we received a GAO report 
which described HSIN's ongoing problems, including not having a 
clear mission and not having all first responders and similar 
stakeholders on the network.
    How are you able to reconcile the problems with HSIN with 
the importance of the sharing that you have through your common 
operations picture and your NOC center?
    Mr. DiFalco. HSIN is critical to that information sharing. 
It is a Web-based network. It is real-time. Everybody that is 
on it sees the information at the same time. So it is 
simultaneous distributed information.
    HSIN was ruled out on threat conditions when it was first 
put out, and at the time it was needed to get a network out 
there that everybody could be on. The business practices and 
the processes or procedures were gapped. That was life at the 
time, and that is the way it is during some operations during 
threat conditions.
    We are working outreach efforts. There is a program office 
set up to help stabilize and to work through those particular 
gaps on HSIN. There is also a HSIN Advisory Council set up and 
a requirements council was set up to make sure that we get 
everybody's input and make the corrections that you are 
referring to.
    The one thing I would like to say on HSIN, though, it is 
the only network out there that has all the Federal, state, 
local, tribal, private sector players on it. We get a lot of 
questions as to, well, we are using different types of systems. 
We are using WebTA or there are different networks. Why aren't 
we including DOD networks? The reality of the situation is each 
agency has their own network or state and local have their own 
network that they are using. But HSIN is the only network that 
allows everyone on it.
    If it is a law enforcement network, you have to be a law 
enforcement officer to be on it. DOD does not want the private 
sector on the network, and those types of things. So when you 
start peeling back the onion, HSIN is the only network that 
allows the full complement across the spectrum of homeland 
security partners to be on it. It is the common operating 
network that we are using for homeland security.
    Mr. Perlmutter. Thank you.
    My 5 minutes have expired, so now I would like to recognize 
the ranking member of the subcommittee, Mr. Rogers, from 
Alabama for his 5 minutes of questions.
    Mr. Rogers. Thank you.
    I understand that the NOC has an intelligence analysis 
function now. Could you tell me how you coordinate this 
intelligence gathering information with others? Or do you?
    Mr. DiFalco. Yes, we do. The NOC has it. The IA, 
intelligence analysis component, is integrated into it. It was 
also integrated into the HSOC, the Homeland Security Operations 
Center. It stayed integrated into the NOC-Watch, which is 
located at the NAC there. They are integrated into the IC 
community. They receive all information that all the 
intelligence community agencies receive. We get it there. We 
are tied in there also with NCTC and all the other agencies.
    So that comes in. The overall fusion mission for the NOC is 
to take intelligence information and fuse it with state and 
local incident management, all-source information, fuse it, do 
a quick look on it, determine if there is a terrorist nexus to 
it, and then keep that information available for IA to conduct 
longer-range analysis on it, like trend analysis, pattern 
analysis.
    Mr. Rogers. Do the locals have a chance to interface with 
you to gather information?
    Mr. DiFalco. To receive that information? Yes, that is one 
of our primary missions is information sharing. We do that. If 
it is information coming in from an intelligence agency or any 
agency, we always request appropriate tear-lines to make sure 
that we can share it with state and local.
    For us to have the information at the NOC and not being 
able to pass it to the right people is worthless, so we want to 
make sure that we are able to do that, and we do that. That is 
our intent.
    Mr. Rogers. OK. I understand also that the NOC now includes 
FEMA's National Response Coordination Center. How does this 
organizational structure work?
    Mr. DiFalco. OK. The NOC operates as a matrix organization. 
There are five elements. We coordinate and work together 
because the NRCC, as an example, is still the component 
operations center for FEMA as a component, and conducts their 
coordination and their efforts within FEMA.
    The fact that they are integrated into the NOC means that 
we have very close coordination with them. We do daily 
conference calls with them. They are on the NOC portal, which 
is our collaboration portal for internal processing. They are 
on the common operating picture. They feed it. They are part of 
the daily operations that we do.
    That is one of the key things is the training that I 
mentioned earlier. We conduct training within the NOC. We are 
expanding to the NOC elements. The exercises include the NRCC, 
all the elements of the NOC. We work on a daily basis together. 
We want to basically train like we fight, so we make sure that 
we are using the same network, same procedures on a daily basis 
that we are going to use during an emergency.
    Mr. Rogers. Where is the NOC physically located?
    Mr. DiFalco. The elements of the NOC are in different 
locations. The NOC-Watch is at the NAC, the Nebraska Area 
Complex in DC. The NRCC is located at the FEMA headquarters. 
The NICC, the National Infrastructure Coordinating Center, is 
located at TSOC.
    Mr. Rogers. And TSOC is?
    Mr. DiFalco. I am sorry. TSOC is the TSA building out at 
Herndon, Virginia. The planning element, the IMPT, is also 
located at the Nebraska Area Complex.
    Mr. Rogers. OK. And you made reference a little while ago 
to the Homeland Security Operations Center. Tell me a little 
bit about how you interact with that entity in the event of--
let's get away from terrorist acts--hurricanes coming.
    Mr. DiFalco. Do you mean the Homeland Security OC or the 
NCTC?
    Mr. Rogers. Homeland security.
    Mr. DiFalco. Basically, sir, the NOC absorbed the Homeland 
Security Operations Center. At one time, and during Katrina, 
what I mentioned earlier was that an operations directorate was 
stood up. Before Katrina, operations functions were spread out 
throughout DHS. So that was brought together under one 
directorate.
    Mr. Rogers. That is what I was getting at. You absorbed it 
is the bottom line.
    Mr. DiFalco. Yes, we did.
    Mr. Rogers. OK. I have no further questions.
    Mr. Perlmutter. Now, the chair will recognize the 
congresswoman from New York, Ms. Yvette Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Thank you for attending today's hearing.
    I think that we have all acknowledged that the inability of 
the Homeland Security Operations Center to give accurate, real-
time situational awareness to top decision makers is central to 
the ``why'' of the department and its failures in the aftermath 
of Hurricane Katrina.
    While it is tragic that DHS responded so poorly to that 
disaster, I am glad to see at least in this particular instance 
the department has been willing to admit its mistakes and take 
the initiative in improving its procedures.
    I agree with my colleagues that the work being done by the 
National Operations Center is very promising. However, we will 
never know whether NOC can be successful until our nation is 
put in the very unfortunate circumstance of dealing with 
another event of the magnitude of Katrina. By then, it may be 
too late to make the improvements before lives will be put on 
the line and put at stake.
    Mr. DiFalco, what sort of testing have you done to ensure 
the success of NOC operations? And how is this different from 
the testing and exercise performed by the HSOC?
    Mr. DiFalco. It is basically in three areas: the planning, 
training, and exercises. That is simulation, trying to work 
through and simulate real-world conditions for the efforts that 
you just mentioned. The planning element--
    Ms. Clarke. Let me just ask about the simulation. How is 
that done? Is it sort of table-top exercises?
    Mr. DiFalco. It includes table-top exercises and live 
exercises where we are actually processing information from 
field units, just like we would during an actual incident.
    The planning element did not exist. One of the major gaps 
was that there was no planning done at the national level, no 
integration of the plans. Each of the agencies were doing their 
own plans, and basically it was in a cylinder fashion. They 
would do it for their agencies, but it wasn't coming together 
at the national level. That has been filled now with the IIMPT, 
the Interagency Incident Management Planning Team. They are 
conducting the planning at the national level, integrating 
plans and bringing that together.
    They also established the crisis action process for DHS. 
They provide crisis action planning, which was not available 
during Katrina. Those have been exercised during actual 
exercises like Ardent Sentry and Vigilant Shield and the other 
major exercises that have been going on. We conduct training in 
addition to that. That is internal training within the NOC. 
Every day, every shift there is a drill that goes on to make 
sure that we can process the information and get the word out. 
And then we conduct outreach training not only in planning, but 
also in reporting, common operating picture, HSIN, with 
everyone from the Federal through state and local partners.
    We participate in all major exercises, and some regional 
and other exercises depending on the situation. We always play 
like we fight in the exercises. We use the actual networks, 
actual people, and the actual processing and structures that we 
will be doing during an incident. We take the lessons learned 
and feed them back in and make adjustments to improve the 
process.
    The other thing that we started is basically an operational 
posturing procedure. It is a notifications procedure. It helps 
with situational awareness and building up to an incident. When 
an incident happens, there is steady-state. There is phase one 
awareness, phase two concerned, phase three urgent. We do 
notifications based on those phases in 12 different thresholds 
for the incidents or emerging incidents.
    So we are able to take the information, process it in NOC, 
post it on HSIN and COP, get the word out to those groups at 
the Federal down through state and local levels as to what is 
going on, and they are able to see the information in near 
real-time within like 25 minutes.
    Ms. Clarke. Mr. DiFalco, my time is running down. I just 
had a question around municipalities. I know that there is such 
a wide range across this nation. How are we getting feedback 
from the local level about their planning and their integration 
into the overall national plan to mobilize?
    I think that was one of the things that sort of frustrated 
people when they saw the unfolding of the event known as 
Katrina, that the municipalities seemed to be so powerless or 
felt they were so powerless in being able to move their own 
citizenry under those conditions. Has there been anything done 
that provides the municipalities with a standard response, 
emergency preparedness training? Can you give us just a little 
indication of that?
    Mr. DiFalco. Yes. The IMPT-level planning is strategic 
level. Underneath that is operational level, even though it is 
nationwide, but it is operational level, and includes FEMA. The 
particular things you are talking about, FEMA has done outreach 
to the major municipalities and states to take a look at their 
plans and offer help with the planning, and incorporate them 
into the operational level plans. That will feed up into the 
strategic level as appropriate or if needed.
    Training teams for planning are available and have gone 
out. I think we have trained over 400 agency people in 
different regions. But that is really done at the component 
level and FEMA is the heavy lifter for that.
    Ms. Clarke. OK. Thank you, Mr. Chair.
    Mr. Perlmutter. Mr. DiFalco, I think we will take another 
pass. All of us will ask you a few more questions if we have 
any more questions. I would like to start by just getting a 
chain of command here, going back to that basic. We have all 
sorts of organizations and task forces and initiatives and 
acronyms and everything else. Who do you report to?
    Mr. DiFalco. I report to the operations director. I report 
to the deputy director, Wayne Parent, who works for Admiral 
Rufe.
    Mr. Perlmutter. So who is the top of the command for you, 
in responding to an incident or an event?
    Mr. DiFalco. Within operations, it is Admiral Rufe.
    Mr. Perlmutter. OK. And then who reports to you? Is there a 
clear line of command to you?
    Mr. DiFalco. In the operations center?
    Mr. Perlmutter. In the operations center or in responding 
to an event, because I think one of the things that just in 
looking at your statement and reviewing what happened with 
Katrina, there were different lines of command going on and 
they weren't really talking to each other.
    It is not that I think this has got to be strictly military 
right up the command. There ultimately has to be a buck 
stopping someplace, and I want to make sure that all that 
information gets to somebody if that is really needed.
    Mr. DiFalco. That is needed. What we call it is information 
flow and coordination, and that is done through the center. The 
information comes from the other operations centers from not 
only DHS, but the interagency. As you know, command and control 
doesn't work interagency because it is really command 
coordination, just because it is the interagency environment.
    We work every day with the interagencies and the other op 
centers to make sure we are getting the information flow into 
the NOC. That has come a long way since Katrina. Before Katrina 
and even during it, to include exercises, a lot of the 
committees and panels or things that we would go to when we 
were developing an exercise, as an example, DHS was a lot of 
times an afterthought. It wasn't built into it. It was like, 
oh, you know, we do our own stuff, and that unifying effort was 
not there, and we are really trying to push that.
    Now, when we go to meetings and stuff like that, everybody 
understands better the DHS role, the role of HSIN and COP and 
those type of things, and are actually integrated in. So there 
is not a reporting chain of command like that for the op 
centers, but we all work together on a daily basis to make sure 
that information comes in.
    Yes, interagency friction is still there. OK, that is kind 
of inherent in just the nature of the operations in the 
interagency world, just like it is with state and local or 
anything else. That friction is there. I think we taken some 
good steps toward jointness, comparing it to the military 
jointness, having jointness in the interagency. That is where 
this needs to go so that everybody is on the same sheet of 
music and cooperating. I think some big steps have been made in 
that direction.
    Mr. Perlmutter. My last question is, you were talking about 
you have had some major exercises. You have had some table-tops 
and different kinds of drills. Have you had any events that 
have triggered the whole NOC operation coming into effect? 
Maybe it was a hurricane that blew by last year or some other 
kind of an event like that.
    Mr. DiFalco. Yes. In 2006, the hurricane season, that 
happened on several occasions for what we thought were emerging 
hurricanes, where the information people were deployed; 
information was flowing in; EOCs were providing information; 
JFOs were beginning to get set up. But then they never 
materialized into a full-flown hurricane, so then we would pull 
back.
    So we are leaning forward doing that, and that happened 
consistently and worked very well during last year's hurricane 
season. The exercises are an example. The Ardent Sentry, the 
one we just finished, had a full-blown hurricane in it, with 
the JFO, principal Federal officials, the whole shooting match. 
And that information flow came in and we processed it.
    The nuclear incident piece of that involved the JFO and a 
PFO, and basically the terrorist spectrum part of it, the 
threat piece, with all the information coming into the NOC, to 
include us using the crisis action process to process that 
information, provide courses of action, and do incident 
management planning.
    Mr. Perlmutter. Last one--I already said last one--but the 
tuberculosis patient who crossed the border a couple of weeks 
ago, is that something where your center would be involved? Did 
you guys get called into that?
    Mr. DiFalco. Yes, we did. We were involved in that from the 
time we were notified on it. The coordination that we did there 
was bringing together HHS, which includes, of course, the 
Centers for Disease Control and the FDA, the Federal Drug 
Administration, and all their agencies, coordinating them with 
TSA, Transportation Security Administration, CBP for the 
borders piece, and trying to bring that all together into one 
picture.
    Mr. Perlmutter. Thank you.
    Mr. Rogers, if you have any further questions?
    Mr. Rogers. I didn't until you asked yours. I want to 
follow up on what he initially pursued, and that is where the 
buck stops.
    I understand that your office is coordinating information, 
but there has to be, in the words of the president, the 
``decider.'' Who is making decisions about what course of 
action to take that overrides this friction that you made 
reference to?
    Mr. DiFalco. OK. The system is set up so that decisions are 
made at the lowest level, including in the field. The best 
operational piece is to have the decisions made and de-
conflicted and worked out at the lowest levels. As they bubble 
up, they either can't resolve them or don't have the resources 
to resolve them, or maybe aren't thinking of them because it is 
outside the scope, but at the higher levels you can see it 
coming--as those bubble up or become apparent, then they go 
through layers.
    Basically, if it can be handled by the operations 
directorate, coordinating with the senior leadership group 
which is the secretary's components and the staff, then the 
decision is made there if it is at that level. If it needs to 
go up to the secretary, then he will have to make the decision. 
From there, it can go up to the domestic readiness group at the 
Homeland Security Council.
    So it is an echelon chain that we can move the information 
up and down to make sure the right decision-makers are 
involved.
    Mr. Rogers. Thank you.
    Mr. Perlmutter. I would like to thank you, sir, for your 
testimony, and the members for all their questions.
    The members of the subcommittee may have additional 
questions for you, which we will present to you in writing. We 
would ask that you respond to them as quickly as you can.
    Thank you very much for your time and your testimony.
    Mr. DiFalco. Thank you.
    Mr. Perlmutter. I would now like to ask that the second 
panel join us.
    I would like to welcome our second panel.
    Our first witness is Eileen Larence. Ms. Larence is 
director for homeland security and justice at the GAO. Her 
specific issue areas are largely focused on the sharing of 
homeland security information and the protection of the 
nation's critical infrastructure. Ms. Larence has 29 years of 
experience managing a broad range of issues at the GAO.
    I will go through the whole panel.
    Our second witness is Colonel Terry Ebbert--good to see you 
again--the director of homeland security for the city of New 
Orleans. As such, he is assigned the operational and planning 
responsibility for the police department, the fire department, 
Office of Emergency Preparedness, and emergency medical 
services. Colonel Ebbert has over 40 years of experience in 
professional leadership positions. He is a twice-wounded combat 
veteran and the recipient of the Navy Cross, one of our 
nation's highest awards for valor.
    Our third witness is Mr. Darrell Darnell, who became the 
director of the Homeland Security and Emergency Management 
Agency for the District of Columbia on March 19 of this year. 
He has 30 years of military, Federal and private sector 
experience, including positions at the United States Department 
of Justice and the Department of Homeland Security. Mr. Darnell 
is also a 2006 senior fellow at George Washington University's 
Homeland Security Policy Institute.
    Our final witness is Mr. Jim Walker, the director of the 
Alabama Department of Homeland Security, where he has served 
since January 20, 2003. Prior to that position, Mr. Walker was 
a lieutenant colonel in the United States Army, where he served 
for over 20 years. His assignments include details as the aide-
de-camp for the chairman of the Joint Chiefs of Staff, and 
operations brief to General Colin Powell, and as an aide to 
former President Ronald Reagan.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Ms. Larence.

 STATEMENT OF EILEEN LARENCE, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Larence. Mr. Perlmutter and Ranking Member Rogers, I am 
pleased to be here today to discuss the results of our review 
of several homeland security operations centers, and the 
opportunities they have to better collaborate across their 
participating agencies.
    Doing so is vital because the mission of the centers is 
critical, to ensure that DHS is aware of developing situations, 
manmade or natural, that threaten the nation, and has the 
information it needs to help manage incidents that may result.
    Hurricane Katrina demonstrated we were not ready, and your 
oversight of progress in fixing the problems Katrina exposed is 
important and timely. As part of this oversight, Congress asked 
GAO to review the functions of operations centers within DHS. 
We reported the results of that review in October 2006 and 
recommended ways the department could promote more 
collaboration in the centers. We recently followed up on DHS's 
response to those recommendations.
    We also obtained an overview of initiatives the department 
has undertaken in response to congressional and administration 
after-action reports and recommendations. While we have not 
fully evaluated these initiatives because they are so new, they 
do present several oversight questions.
    Based on our work, I would like to make two key points this 
afternoon. First, the three multi-agency 24/7 operational watch 
centers we reviewed that are housed within DHS components such 
as Customs and Border Protection or the Transportation Security 
Administration, and to some extent the National Operations 
Center that Mr. DiFalco just discussed, could better 
collaborate across the components of the staff of these centers 
to achieve their common mission of providing situational 
awareness and incident management during a crisis.
    To date, the department has implemented some, but not all, 
of our recommendations. For example, we recommended that the 
operations centers in our review could better implement six 
actions GAO identified from the private sector as best 
practices for agency collaboration.
    We recommended that the operations directorate issue 
guidance to these different various centers about how to 
implement these best practices, and include, for example, 
making certain that all agencies understand the center's common 
goal and outcome, that they have clearly documented the joint 
strategies that they are going to use to get there, and that 
they clearly define and document each person's role in 
achieving that outcome.
    For example, it is important that the role of each center's 
watch standard--and these are the persons that actually do the 
24/7 surveillance--that their roles be documented and 
understood by all so that they understand their jurisdictions 
and their responsibilities and they avoid confusion, especially 
during emergencies and crises.
    We also pointed out that centers could getter assess the 
number and capabilities of staff they need compared to what 
they have onboard, leverage the expertise and plan ways to fill 
any gaps. DHS agreed with the recommendations at the time, and 
have taken some action on them. To its credit, the National 
Operations Center is addressing some of these best practices, 
such as defining their watch standard roles and implementing 
protocols for reporting information during an incident.
    However, the operations directorate does not plan to issue 
the guidance that we recommended. It maintains it doesn't have 
any authority or control over the other operations centers 
within DHS. These individual centers themselves are not 
implementing the recommendations on their own. We maintain that 
full implementation of our recommendations would not exceed the 
NOC's authority, would be consistent with their priorities, and 
quite frankly, relatively easy to implement, and would produce 
benefits.
    For my second point, while the operations directorate and 
center deserve credit for the changes they are implementing in 
response to Katrina problems and recommendations, we must 
acknowledge that the changes are still new and evolving, and 
DHS must address several challenges and next steps, so 
continued oversight will be critical.
    For example, as Mr. DiFalco enumerated, the directorate and 
center report that they are instituting a lot of new teams and 
processes and protocols to manage incidents under any 
significant scenario, including terrorist threats, but they 
still need 2 years to develop the plans for all 15 of these 
scenarios.
    They are implementing the common operating picture, and 
they are also establishing information requirements for each of 
these planning scenarios that I just discussed. They are 
establishing clear reporting channels for this information. 
They have identified who is in charge of validating the 
information that is first reported up. And they have 
established templates and deadlines for providing this 
information to senior leaders.
    While we have not evaluated the implementation and 
effectiveness of these initiatives in detail, our review 
demonstrates that DHS has accomplished a lot. It still has a 
lot of work to do, and raises several oversight questions.
    For example, the department focused its initial efforts on 
making changes in time for the 2006 hurricane season, but now 
must focus on other scenarios. Will it get the commitment it 
needs, especially from its own components and other Federal 
agencies? And will it be able to sustain this commitment over 
time, especially for resources? And was it ready for the recent 
TB scare? And would it be ready for a pandemic?
    Is the new planning process redundant to FEMA's planning 
process? Has DHS resolved its organizational instability that 
stakeholders said delayed progress? Will it be able to resolve 
the problems that continue to plague its Homeland Security 
Information Network, and maintain enough users to make the 
system viable? Some DHS components, for example, are concerned 
about the lack of security features and other issues with the 
system, and have asked DHS for waivers to use alternative 
networks instead.
    Finally, we and DHS itself acknowledge that the agency must 
implement ways to measure the effectiveness of its initiatives 
as insurance against future disasters. We commend DHS for 
testing its initiatives through a series of live exercises, but 
we also maintain that implementing more systematic measures, 
including soliciting feedback from state and local 
stakeholders--my peers on the panel--is important, as Katrina 
demonstrated, since they are our first line of defense and 
critical to incident management.
    Mr. Chairman, that concludes my remarks. I would be happy 
to answer any questions. Thank you.
    [The statement of Ms. Larence follows:]

                Prepared Statement of Eileen R. Larence

    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to participate in today's hearing to 
discuss our work on assessing the relationship among various operations 
centers of components of the Department of Homeland Security (DHS) and 
the agency's overall National Operations Center in carrying out the 
important mission of maintaining situational awareness.
    When DHS was established as an organization, we recognized the 
challenges it would face in trying to integrate 22 legacy agencies into 
one new corporate entity. Therefore, in January 2003 we placed the 
integration and transformation of the department on GAO's high-risk 
list--composed of those federal agencies, programs, or activities that 
pose the highest risk to the nation--because we recognized the country 
could not afford to have DHS fail. The Department's transformation 
remained on our high-risk list for 2007 because DHS had still not fully 
addressed its integration, management, and programmatic challenges.\1\ 
Placing it on this list obligates us to continue to monitor how well 
the integration and transformation is succeeding.
---------------------------------------------------------------------------
    \1\ GAO, High Risk Series: An Update, GAO-03-119 (Washington, D.C.: 
Jan. 2003); High Risk Series: An Update, GAO-07-310 (Washington, D.C.: 
Jan. 2007).
---------------------------------------------------------------------------
    With similar concerns, as well as concerns with the response to 
events that have occurred since, such as hurricanes Katrina and Rita 
and continuing terrorist threats, the Congress has been overseeing 
DHS's transformation. As part of this oversight, the Senate Committee 
on Homeland Security and Government Affairs requested that we identify 
the DHS operations centers (established to conduct monitoring and 
surveillance activities that can help detect, deter and prevent 
terrorist acts), to determine if any centers are redundant, and assess 
the functions and customers of these centers. Also, as part of this 
oversight, the Committee recognized that Hurricane Katrina demonstrated 
that the department's main operations center--the Homeland Security 
Operations Center--was not ready to effectively coordinate the sharing 
of information in a time of crisis and needed repair; therefore, it 
made a series of recommendations to address the problems identified and 
has been monitoring the agency's efforts to ensure DHS makes these 
changes.\2\
---------------------------------------------------------------------------
    \2\ Report of the Committee on Homeland Security and Government 
Affairs, Hurricane Katrina: A Nation Still Unprepared, United State 
Senate. (Washington, D.C.: May 2006).
---------------------------------------------------------------------------
    In response to the Senate Committee's request for GAO to review 
operations centers, we decided to assess those centers within DHS's 
component agencies that, first, conduct operations 24 hours a day, 7 
days a week, 365 days a year (24/7/365), and that, second, have a 
broader security mission that DHS has determined requires higher levels 
of collaboration from many stakeholders, including DHS component 
agencies, and other federal, state, and local agencies. These centers 
are the Air and Marine Operations Center and the National Targeting 
Center, sponsored by U.S. Customs and Border Protection; the 
Transportation Security Operations Center sponsored by the 
Transportation Security Administration; and the National Operations 
Center Interagency Watch, the successor to the Homeland Security 
Operations Center, run within the Office of Operations Coordination at 
DHS. We assessed the extent to which they implemented key practices 
that our work has shown helps to enhance and sustain collaboration,\3\ 
since such collaboration is important to one of the main functions of 
each center, namely, sharing information needed to develop and maintain 
situational awareness of potential crises and terrorist activity 
nationwide. These key collaborative practices include defining and 
articulating a common outcome and joint strategies to guide multi-
agency activities such as information sharing, and assessing staffing 
needs to leverage the resources other agencies contribute to the 
centers. We found that these practices can help agencies overcome 
barriers to collaboration, such as overprotection of jurisdiction and 
resources, as well as, incompatible procedures and processes that can 
result in agencies operating in a fragmented and uncoordinated way, 
wasting resources, and limiting effectiveness.
---------------------------------------------------------------------------
    \3\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration among Federal Agencies, GAO-06-15 
(Washington, D.C.: Oct. 2005).
---------------------------------------------------------------------------
    Based on our work on operations centers, we issued a report in 
October 2006 with recommendations for the Operations Directorate 
develop and provide guidance to the centers to encourage that they 
implement these key collaborative practices as a means to enhance their 
ability to meet their missions.\4\ Today, we would like to, first, 
briefly review the collaboration issues and recommendations we 
presented in our report, then, give an update of DHS's efforts to 
respond to these recommendations.
---------------------------------------------------------------------------
    \4\ GAO, Homeland Security: Opportunities Exist to Enhance 
Collaboration at 24/7 Operations Centers Staffed by Multiple DHS 
Agencies, GAO-07-89 (Washington, D.C.: Oct. 2006).
---------------------------------------------------------------------------
    In addition, we are aware of the Congress's concerns about the 
performance of the Homeland Security Operations Center during Hurricane 
Katrina, and the recent efforts made in response to these and other 
concerns identified in hurricane after-action studies and reports. 
Because these efforts to some extent affect DHS's response to our 
recommendations, we briefly describe some of the steps DHS recently 
reported to us that it has taken to address problems Katrina exposed, 
although it is too early to assess these actions to determine how well 
they are being implemented since a number of them are relatively new.

Scope and Methodology
    To determine the extent to which operations centers managed by 
different offices and components within DHS had implemented key 
practices that our work has shown can enhance collaboration among 
federal agencies, during our original work, we reviewed transition, 
management integration, and planning and policy documents from the 
department. We also reviewed strategic plans, as well as annual 
performance reports and planning documents from DHS and its component 
agencies. In addition, we reviewed and analyzed the results of studies 
undertaken by DHS to assess and improve coordination and collaboration 
at the multi-agency centers as well as reports from GAO, the 
Congressional Research Service, the DHS Office of Inspector General, 
and others that addressed the integration, coordination, and 
collaboration of departmentwide program functions. To determine the 
extent to which they reflect how DHS has encouraged the use of the key 
collaborative practices, we also met with the acting director and other 
responsible officials from the Office of Operations Coordination to 
discuss its role and responsibilities.
    To obtain updated information on DHS's efforts to implement our 
recommendations, we visited the National Operations Center, the 
National Infrastructure Coordination Center, the National Response 
Coordination Center, and Transportation Security Operations Center and 
met with center managers. In addition, we spoke to officials at the 
National Targeting Center. We also received a series of briefings on 
organizational and operational changes implemented since Hurricane 
Katrina and reviewed documentation provided to explain these changes. 
We relied on these visits and briefings for updated information on 
DHS's response to our and post-Katrina after action report 
recommendations; we did not verify the accuracy of DHS's officials' 
statements or the effectiveness of the implemented actions. We 
conducted our original and additional audit work in accordance with 
generally accepted government accounting standards between October 2005 
through September 2006, and March 2007 through June 2007, respectively.

Summary
    In our October 2006 report, we reported that the centers had the 
opportunity to better implement most of the key practices we identified 
that enhance collaboration. While we did not identify any major 
problems or barriers to executing their missions, enhanced 
collaboration could further ensure robust situational awareness and 
support to incident response. For example, we found that while DHS had 
implemented one key collaborative practice--leveraging its resources--
by having staff from multiple agencies work together at the four 
operations centers, it could better implement the following 
collaborative practices:
        <bullet> Defining and articulating a common outcome or joint 
        strategies. This helps to provide, for example, a compelling 
        rationale for agencies to collaborate.
        <bullet> Assessing each center's needs in order to leverage 
        resources, especially human resources or staffing needs. This 
        helps to ensure efficiencies and that the functions of a center 
        are not compromised by the workforce limitations of a single 
        agency.
        <bullet> Defining roles and responsibilities, especially of the 
        watchstanders \5\ in each center, those staff who come from 
        other agencies and have the important job of conducting 
        surveillance activities. This helps to ensure that people at 
        the same center in the same role perform their responsibilities 
        consistently. Because of the potentially critical, time-
        sensitive need for decisive action at 24/7/365 operations 
        centers, it is important that the roles and responsibilities of 
        watchstanders are described and understood by both the watch 
        staff as well as the officials responsible for managing the 
        operations centers.
---------------------------------------------------------------------------
    \5\ For the purpose of our report, we used the term 
``watchstander'' to refer to an individual required to work full-time 
on a rotating 24-hour schedule, 7 days per week, to maintain 
situational awareness, conduct information assessment and threat 
monitoring to deter, detect, and prevent terrorist incidents. A 
watchstander may also act as a liaison between his agency and other 
agency representatives at the center, and may manage response to 
critical threats and incidents.
---------------------------------------------------------------------------
        <bullet> Establishing compatible standards, policies, and 
        procedures, such as those for DHS's Homeland Security 
        Information Network (HSIN) \6\--the primary network DHS uses to 
        share incident management and homeland security information 
        across DHS, and with other federal, state, and local partners. 
        This would provide a means to operate across agency boundaries 
        and help ensure effective communications among the centers.
---------------------------------------------------------------------------
    \6\ The HSIN is an unclassified, Web-based system that provides a 
secure, collaborative environment for real-time information sharing 
that includes reporting, graphics, and chat capabilities, as well as a 
document library that contains reports from multiple federal, state, 
local, and private-sector sources. HSIN supplies suspicious incident 
and pre-incident information, mapping and imagery tools, 24x7 
situational awareness, and analysis of terrorist threats, tactics, and 
weapons.
---------------------------------------------------------------------------
        <bullet> Developing mechanisms to monitor and evaluate results 
        of joint operations, such as conducting joint exercises and 
        assessing the after-action reports. This helps management, key 
        decision makers, and both stakeholders and customers obtain 
        feedback to improve governing policy and operational 
        effectiveness.
        <bullet> Reinforcing agency accountability for collaborative 
        efforts by recognizing joint efforts and outcomes achieved in 
        published strategic and annual performance plans and reports. 
        Joint accountability and recognition can provide an incentive 
        to collaborate.
    We found that the Operations Directorate, established in November 
2005 to improve operational efficiency and coordination, provides DHS 
with an opportunity to more fully implement these key practices. 
Therefore, we recommended that the Secretary of DHS charge the Director 
of the Operations Directorate with developing and providing the 
guidance necessary to help ensure the four centers take the following 
six actions to implement best practices for collaboration and help 
better position the centers to achieve their common missions:
        <bullet> Define common outcomes and joint strategies for 
        achieving their overall mission;
        <bullet> Conduct staffing needs assessments to better leverage 
        resources within centers;
        <bullet> Clarify the roles and responsibilities for 
        watchstanders so that they understand each person's expected 
        duties and contributions, especially during an emergency;
        <bullet> Apply standards, policies, and procedures to promote 
        the more extensive use of DHS's information network to improve 
        communications;
        <bullet> Prepare mechanisms to monitor and evaluate the results 
        of joint and collaborative efforts to ensure effectiveness; and
        <bullet> Address the results achieved by collaborative efforts 
        in strategic and annual performance plans and reports to 
        increase accountability.
    At the time of our report, DHS agreed with these recommendations, 
but according to DHS officials, has yet to implement them. In recent 
meetings, DHS said that they believe some changes at the National 
Operations Center are responsive to several of these recommendations. 
For example, the center is taking steps to better define the role of 
watchstanders, and DHS has designed a strategy and set of initiatives 
to improve the usefulness of the information network. However, 
according to Operations Directorate officials, they have not been 
directed by DHS to issue the overall guidance we recommended. They also 
do not plan to issue such guidance at this time because they stated 
they do not have any administrative, budgetary, or operational 
authority or control over the other three component centers. While we 
understand that these centers have missions unique to their sponsoring 
agencies and are not subject to the Operations Directorate, providing 
these centers guidance that is not mandatory but strongly endorsed on 
ways to better collaborate internally would enhance their effectiveness 
within their own centers as well as in providing the national center 
the information it needs, especially during a time of crisis.
    DHS officials said another reason they had yet to implement our 
recommendations is in part because, instead of focusing on these intra-
department collaboration issues, DHS has been giving priority to fixing 
critical inter-agency and inter-governmental issues that hindered its 
ability to respond to major, national incidents and disasters, 
particularly Hurricane Katrina. DHS officials said there were a number 
of post-Katrina initiatives underway which could build relationships 
among the centers so that they are more disposed to implement the 
recommended key collaborative practices in the future. For example, DHS 
points to its efforts to:
        <bullet> Establish standard roles and procedures among all 
        stakeholders, both within and outside DHS, for reporting 
        information during a major incident. Now, according to DHS, 
        information must be verified and clarified at the field and 
        headquarters level before it is placed on its information 
        network.
        <bullet> Create the Common Operating Picture--a real-time, web-
        based tool designed to provide a common view of critical 
        information during a crisis--within DHS's Homeland Security 
        Information Network.
        <bullet> Create working groups of partners within and outside 
        of DHS to enhance information flow on planning, training, and 
        incident management, to resolve interdepartmental conflicts, 
        and to facilitate decision-making at higher levels.
    While it is too early to assess to what extent DHS has successfully 
implemented and institutionalized these initiatives since some are only 
recently established, they appear to be designed to address several key 
recommendations from congressional and administration Post-Katrina 
assessments.\7\ DHS acknowledges it still has a substantial way to go 
to fully implement these initiatives and measure their results, but it 
has recently tested some of these initiatives during interagency 
training exercises and has plans to do more of these tests in the 
future. Continuing to focus on efforts to measure how well these 
initiatives are working, and, as importantly, to what extent key 
stakeholders, such as state and local governments and the private 
sector, anticipate that these initiatives will meet their needs is 
critical, given that Hurricane Katrina demonstrated these stakeholders 
are the first responders and key to effective disaster response and 
recovery. Finally, it is clear that Congressional oversight has been 
and will continue to be a key driver in accelerating DHS's efforts to 
be better prepared to respond to and manage national incidents.
---------------------------------------------------------------------------
    \7\ Executive Office of the President, The Federal Response to 
Hurricane Katrina: Lessons Learned. February 2006.

DHS's Four Multi-Agency Operations Centers Have Unique Missions and 
Responsibilities, but Also Have Opportunities to Enhance Collaboration
    In our October 2006 report on DHS multi-agency operations centers, 
we found that they were not unnecessarily redundant in that they have 
distinct missions but also contribute to the larger effort, carried out 
by the National Operations Center, to provide national situational 
awareness and incident management across DHS. In terms of key 
collaborative practices, DHS had implemented one practice--leveraging 
its resources--by having staff from multiple agencies work together at 
the four operations centers, but could take advantage of other relevant 
practices we have found to be important to enhancing and sustaining 
collaboration among federal agencies. We also reported that the 
establishment of the Operations Directorate provided DHS with an 
opportunity to more consistently implement these practices. As of June 
2007, DHS had taken some actions but had not yet implemented our 
recommendations for several reasons, including the stated concern that 
the Operations Directorate does not have authority over component 
centers. Nevertheless, we continue to see merit in the wider use of the 
key collaborative practices we identified and a role for the 
Directorate to encourage their use across centers.

The Centers Do Not Define and Articulate Common Outcomes and Joint 
Strategies, a Key Practice Intended to Enhance and Sustain 
Collaboration
    At the time of our review, the three DHS components responsible for 
the four multi-agency centers had not developed or documented common 
goals or joint strategies that incorporated all the agencies within the 
centers and that our work has shown could, in turn, enhance 
collaboration among these agencies. Officials at the multi-agency 
operations centers we visited said they did consider formally 
documenting working agreements but concluded it was not essential since 
all of the agencies involved were part of DHS. While this may be true, 
documenting common outcomes can provide a compelling rationale for 
agencies to collaborate and documenting joint strategies ensures 
everyone is working in concert toward the end results that collectively 
need to be achieved. Our work shows that agencies strengthen their 
commitment to collaborate when they articulate agreements in formal 
documents such as memorandums of understanding, interagency guidance, 
or interagency planning documents.
    Last year, officials from the National Operations Center said that 
the lack of formal agreements is a reflection of the speed with which 
the center was established and the inherent flexibility offered to DHS 
agencies in order to get them to staff the operation center positions. 
While recognizing the benefits of such flexibility, it is important to 
balance the trade-off of ensuring that all participants understand the 
common goals and objectives to be achieved. In addition, within DHS, 
external and internal memorandums of agreement and other interagency 
joint operating plans are often used to document common organizational 
goals and how agencies will work together. For example, the Office of 
Investigations at Immigration and Customs Enforcement and Customs and 
Border Protection's border patrol have a memorandum of understanding 
that governs the interaction between the two components as they carry 
out their missions to investigate and reduce vulnerabilities in the 
customs and immigration systems and to protect our borders, 
respectively, and formalizes roles and responsibilities in order to 
enhance information sharing. In addition, the DHS Office of Inspector 
General has reported that memorandums of understanding are valuable 
tools for establishing protocols for managing a national-level program 
between two organizations.\8\ For these reasons, we recommended that 
the Operations Directorate develop and provide guidance to the three 
agencies that sponsor the operations centers to help ensure they define 
common goals and joint strategies that incorporate all the agencies 
working at the centers.
---------------------------------------------------------------------------
    \8\ Department of Homeland Security Office of Inspector General, 
Office of Inspections and Special Reviews, An Assessment of the 
Proposal to Merge Customs and Border Protection with Immigration and 
Customs Enforcement, OIG-06-04 (Washington, D.C.: Nov. 2005).
---------------------------------------------------------------------------
    In our recent follow-up to our recommendations, DHS officials said 
that they had not issued such guidance, but pointed to several other 
post-Katrina actions DHS was taking that it believes are examples of 
common strategies and plans that are put into action daily and that 
enhance collaboration, and thus, situational awareness. For example, 
DHS said it has developed national reporting requirements and a 
coordinated national reporting chain for submitting homeland security 
information during a crisis, in part in response to Hurricane Katrina 
lessons learned. The national reporting requirements and reporting 
chain is to define procedures that component centers, among others, are 
to follow for inputting and confirming information used during a 
crisis.
    In addition, our past work has demonstrated that agencies should 
involve nonfederal partners, key clients, and stakeholders in defining 
and articulating outcomes and decision-making. Along those lines, DHS 
has created or plans to create several working groups with state, 
local, and private sector members to enhance information flow for 
incident management, and facilitate decision-making at higher levels. 
For example, the Director of the Office of Operations said DHS plans to 
establish a HSIN Advisory Council to provide a forum for providing 
feedback on ways to improve information sharing among communities of 
interest.

The Centers Are at Varying Stages of Assessing Staffing Needs; Doing So 
Could Help to Ensure Centers Have Enough Staff to Leverage Resources to 
Increase Efficiency
    The extent to which officials responsible for managing the four 
multi-agency operations centers had conducted needs assessments to 
determine the staffing requirements of each center as a means to 
leverage resources varied at the time of our review. For example, CBP 
officials conducted an evaluation in June 2005 that addressed the Air 
and Marine Operations Center's capabilities and continuing staffing 
needs related to its personnel, but it did not clearly address the need 
for, or responsibilities of, U.S. Coast Guard staff assigned to the 
center. Transportation Security Operations Center and National 
Operations Center officials said they had not documented a needs 
analysis for staff from other agencies. They said they viewed cross-
agency staffing as a historical edict based on a general assumption 
that such expertise was needed to fulfill the mission of their 
operations center, and believed that the supporting agency providing 
the staff best knew the staffing requirements to fulfill its role at 
the centers. Our work has shown that identifying and leveraging 
resources, including human resources, ensures efficiencies and that the 
functions of a multi-agency operations center are not compromised by 
the workforce limitations of a single agency.
    Since our report, DHS said it is updating mission requirements for 
the Operations Directorate and will subsequently assess the National 
Operations Center's staffing needs, although DHS did not say when that 
assessment would be completed. On the other hand, Officials at the 
National Targeting Center and the Transportation Security Operations 
Center told us they have not assessed cross-component staffing needs 
because they considered such assessments to be the responsibility of 
the agency providing staff. Nevertheless, we maintain that such 
assessments continue to be useful to ensure efficiency and that 
operations centers have the correct mix of staff to perform their 
missions. Therefore, while we understand that the Operations 
Directorate has taken the position it does not have control over the 
component center resources, we maintain that providing guidance to 
component agencies to assist them in conducting such staffing needs 
assessments would allow the component sponsoring the center to leverage 
resources more efficiently to meet the operational needs of the center.

Not All Centers Have Established a Definition of Watchstander Roles and 
Responsibilities for All Agencies at Each Center; Doing So Would Help 
Ensure Staff Understand Each Others' Duties during Emergencies
    Our work has shown that collaborating agencies should work together 
to define and agree on who will do what and how they will organize 
their joint and individual efforts, and that this facilitates decision-
making. Agencies use handbooks, charters, standard operating 
procedures, and other methods to document these agreements. We found, 
however, that while three of the four multi-agency operations centers 
had developed descriptions for the watchstander position staffed by 
their own agency at the time of our review, only one center--the Air 
and Marine Operations Center--had developed a position description for 
staff assigned to the center from another DHS agency. For example, at 
this center, officials require that Coast Guard staff meet a 
standardized set of requirements for radar watchstanders. The other 
centers relied on the components that provide staff to define their 
watchstanders' roles and responsibilities. While we recognize 
components may be in the best position to define how their staff should 
contribute, we maintain that it is important that each watchstander's 
position within a center be clearly defined and communicated so that 
staff understand not only their individual role, but each other's 
responsibilities and span of control, as well as their expected joint 
contributions, most critically during major events. In addition, 
because of the potentially time-sensitive need for decisive action at 
24/7/365 operations centers, it is important that the roles and 
responsibilities of watchstanders are described and understood by both 
the staff and the officials responsible for managing the operations 
centers to enhance and sustain collaboration. Further, a definition of 
the watchstander role and responsibilities is important for supporting 
agency officials who must make staffing decisions about assigning 
qualified and knowledgeable personnel to the centers.
    According to DHS, since our report, it has taken steps to further 
define the role and responsibilities of the watchstanders in its 
National Operations Center and documented them in its Standard 
Operating Procedures, as well as to develop Memoranda of Agreements 
with the components that will codify the role of the watchstanders they 
provide to the National Operations Center. Such an action, like that of 
the Air and Marine Operations Center with regard to Coast Guard 
watchstanders, helps ensure that the staff received from partnering 
organizations possess the necessary skills to support the operations 
center to which they are assigned. Given that DHS has recognized the 
importance of this key practice within these two instances, we continue 
to maintain it is important for DHS to ensure the other centers 
likewise have clearly defined and communicated the roles and 
responsibilities of watchstanders.

DHS Has Taken Some Steps to Provide Centers with Standards, Policies, 
and Procedures, Especially for Information Sharing, to Operate across 
Agency Boundaries, but Challenges Remain
    Since January 2005, we have designated information sharing for 
homeland security a high-risk area because the federal government still 
faces formidable challenges in analyzing and disseminating key 
information among federal and other partners in a timely, accurate, and 
useful manner.\9\ Likewise, Hurricane Katrina demonstrated that the 
inability to share information during a disaster can impair the speed 
of response and recovery efforts. Each operations center shares 
information so as to understand threats, maintain situational 
awareness, and facilitate the management of responses to incidents. One 
of the key technical tools DHS has decided to use to provide for this 
information-sharing is the HSIN, and organizations participating in 
multi-agency operations centers need to be connected to the network and 
have the training and guidance that enables its use, among other 
things. DHS implemented HSIN in 2004 and reports that 18,000 
individuals across DHS, other federal agencies, as well as state and 
local government and private entities are authorized to use it. 
However, we, the DHS IG, and the department itself have identified 
continuing concerns with this system, which is used for sharing a 
variety of information, including law enforcement and emergency 
response information used to support situational awareness and incident 
response
---------------------------------------------------------------------------
    \9\ GAO. High-Risk Series: An Update, GAO-07-310 (Washington, D.C.: 
Jan. 2007).
---------------------------------------------------------------------------
    In April 2007, we reported \10\ that DHS did not fully adhere to 
collaborative practices or Office of Management and Budget (OMB) 
guidance in coordinating its efforts to implement HSIN through state 
and local information-sharing initiatives. OMB guidance requires DHS to 
foster such coordination and collaboration as a means to improve 
government performance, including enhancing information sharing and 
avoiding duplication of effort. Key practices to help implement the 
guidance include establishing joint strategies and developing 
compatible policies and procedures to operate across agency boundaries. 
However, DHS did not fully adhere to these practices or guidance in 
coordinating its efforts on HSIN with key state and local stakeholders. 
As a result, the department faces the risk that, among other things, 
effective information sharing is not occurring and that its HSIN system 
may duplicate state and local capabilities. The department has efforts 
planned and underway to improve coordination and collaboration, but 
these efforts have just begun or are being planned with implementation 
milestones yet to be established. As a result, we made recommendations 
to the Secretary of Homeland Security to ensure that HSIN is 
effectively coordinated with state and local government information-
sharing initiatives. The Inspector General's June 2006 report had 
similar findings that DHS did not provide adequate guidance, including 
clear information sharing processes, training, and reference materials, 
needed to effectively implement HSIN \11\ so that stakeholders were 
sure of how to use the system.
---------------------------------------------------------------------------
    \10\ GAO, Information Technology: Numerous Federal Networks Used to 
Support Homeland Security Need to Be Better Coordinated with Key State 
and Local Information-Sharing Initiatives, GAO-07-455 (Washington, 
D.C.: April 2007).
    \11\ Department of Homeland Security Office of Inspector General, 
Office of Information Technology, HSIN Could Support Information 
Sharing More Effectively, DHS/OIG-06-38 (Washington, D.C.: June 2006).
---------------------------------------------------------------------------
    The HSIN program manager pointed to a number of initiatives being 
implemented to address these challenges. These actions include the 
issuance of a strategic framework and implementation plan, creation of 
a Mission Coordinating Committee to define component information 
requirements for the network, and, as mentioned previously, the planned 
establishment of a HSIN advisory committee comprised of experts, users, 
and other stakeholders involved in homeland security operations around 
the country. This committee is intended to provide DHS with comments 
and feedback on how the HSIN program can better meet user needs, 
examine DHS's processes for deploying HSIN to the states, assess state 
resources, and determine how HSIN can coordinate with these resources. 
Nevertheless, the program manager also identified challenges in getting 
components to participate in the process of identifying user needs, and 
said that the department still faced challenges in gaining widespread 
acceptance and use of this tool. Furthermore, one component that 
sponsors a key portion of HSIN, the Preparedness Directorate, is 
considering whether to continue to support and maintain portals to 
provide connectivity to private sector owners and operators of critical 
infrastructure sites, or whether to pursue other alternatives, raising 
questions about the overall utility of HSIN. Finally, the DHS Office of 
Inspector General plans to conduct an evaluation of the HSIN beginning 
later this year as a follow-up to its 2006 report to determine the 
progress the Department has made in fixing the shortcomings 
identified.\12\
---------------------------------------------------------------------------
    \12\ Department of Homeland Security, Office of Inspector General, 
Office of Information Technology, Homeland Security Information Network 
Could Support Information Sharing More Effectively, OIG-06-38, June 
2006.

Three of Four Centers Had Not Developed Methods to Monitor and Evaluate 
the Results of Joint Efforts
    With the exception of the Air and Marine Operations Center, the 
multi-agency centers had not developed methods to monitor and evaluate 
the results of joint efforts at the time of our review, a key practice 
for ensuring collaboration. For example, the Office of Management and 
Budget's assessment of the National Operations Center for 2005 
determined that center officials had not established effective annual 
or long-term performance goals, a first step in an effective 
performance management and measurement process. Nor were performance 
measures or other mechanisms in place to monitor and evaluate the joint 
efforts of multiple DHS agencies at the Transportation Security 
Operations Center and the National Targeting Center. Without annual 
goals and a means to measure performance, it is difficult for an 
organization to determine how well it is functioning and identify how 
it could be more effective. Likewise, our work has shown that 
developing performance measures and mechanisms can help management, key 
decision makers, and both stakeholders and customers obtain feedback to 
improve operational effectiveness and policy.
    To date, DHS has not provided guidance to the multiagency centers 
to help implement mechanisms to monitor and evaluate the results of 
collaborative efforts. However, as we further discuss later in this 
statement, the Operations Directorate said the National Operations 
Center, and, as relevant, other centers, have participated in, and will 
be participating in, exercises to test some of the changes the centers 
have implemented. These exercises provide a means to monitor and 
evaluate collaboration during real or hypothetical events, and the 
after-action reviews or lessons learned reviews conducted such as 
Katrina after-action reports and recommendations, as well as its own 
exercises and lessons learned, such as the exercises to test and revise 
HSIN and the Common Operating Picture (COP). The center director also 
described several new inter-agency groups designed to improve 
operations that also offer a means to monitor and evaluate results as 
well.

The Centers Are at Various Stages of Using Joint Agency Planning and 
Reporting to Reinforce Accountability for Collaborative Efforts
    In our prior work, we determined that neither DHS nor the component 
agencies responsible for managing multi-agency operations centers 
consistently discussed, or included a description of, the contribution 
of the centers' collaborative efforts in the components' strategic or 
annual performance plans and reports. Our work has shown that federal 
agencies can use these plans and reports as tools to drive 
collaboration with other agencies and partners, as well as to establish 
complementary, consistent, and reinforcing goals and strategies for 
achieving results. Published strategic and annual performance plans and 
reports make agencies answerable for collaboration, and help to ensure 
that Congress has the information necessary to monitor, oversee, and 
effectively make investment decisions.
    In terms of using strategic and performance plans to reinforce 
collaboration, the most recent DHS strategic plan, issued in 2004, 
neither included a discussion of performance goals for, nor addressed 
the joint operations of, the multi-agency centers. On the other hand, 
the Air and Marine Operations Center's strategic plan for 2005 
generally discussed the importance of strengthening collaboration with 
other component agencies and included a goal to strengthen component 
agency partnerships to maximize homeland security strategies.
    In terms of using published reports to increase accountability for 
collaboration, CBP's 2005 annual report on the operations of the 
National Targeting Center did include a section dedicated to the 
contributions of personnel from other DHS components. But, reports from 
the other components that manage the centers did not address the roles 
and contributions of supporting agencies in accomplishing the centers' 
missions. Thus agencies are missing an opportunity to reinforce the 
value of partner agency contributions and investments. Likewise, 
reports from the DHS agencies that provide staff to these centers also 
did not address their participation in their own performance reports.

DHS's Operations Directorate Has Given Priority to Fixing the Problems 
that Hurricane Katrina Exposed
    According to DHS officials, the Operations Directorate and the 
National Operations Center have been focused on responding to the 
congressional and administration reports and corresponding 
recommendations generated in the aftermath of Hurricane Katrina. These 
reports pointed to a number of failures and problems attributed to the 
predecessor to the National Operations Center--the Homeland Security 
Operations Center--including unclear roles and responsibilities; 
problems with the flow of information in and out of the center, 
especially to senior leadership; a lack of planning; problems 
confirming and validating information, and clarifying conflicting 
information; and untimely reporting. The reports concluded that as a 
result, senior leaders in the Department and the Administration were 
not aware of problems with the levees and flooding as early as they 
should have been. To address these problems, the after action reports 
made a series of recommendations, including the:
        <bullet> Creation of a national operations center to provide 
        national situational awareness, facilitate incident management, 
        and a common operating picture;
        <bullet> Establishment of a permanent planning element for 
        incident management and a national planning and execution 
        system; and
        <bullet> Creation of a national reporting system as well as 
        national information requirements and a reporting chain.
    In response to these concerns, among others, DHS reported that it 
made a series of changes to its operations, organization, and 
procedures for sharing information in order to maintain situational 
awareness and provide for incident management. The changes included 
giving priority to improving coordination with external stakeholders, 
such as other federal agencies, state and local entities who are the 
first responders and ultimately manage recovery efforts, and its own 
components and their respective operations centers. The DHS National 
Operations Center staff with whom we spoke maintained that implementing 
these changes could in turn create an environment where the components 
and centers may be more disposed to implementing the key practices for 
improving collaboration that our work has identified.
    To address problems with collecting, analyzing, and timely 
disseminating of critical information during an incident that Katrina 
exposed, DHS officials said the Operations Directorate and the National 
Operations Center established several initiatives within the last year 
or so. Among other things, these initiatives included a new 
notification system aimed at providing protocols for sharing 
information on a graduated scale (from steady state to awareness, 
concern, and finally urgency). The Operations Directorate and the 
National Operations Center also defined a reporting structure, ranging 
from more real-time, unvetted information available from and to a wide 
range of stakeholders to reports intended to be more complete, vetted 
and validated through designated lead agencies and higher-level 
summaries geared for more senior leadership. DHS has initially 
developed these protocols and processes for sharing information for 
hurricane response and recovery and is expanding them to other 
scenarios and concerns.
    One other major DHS initiative to better share information for 
situational awareness and decision support that responds to key post-
Katrina recommendations also depends on HSIN. DHS has created the 
Common Operating Picture within HSIN as a web-based tool designed to be 
available to all HSIN users, including key federal, state, and joint 
field office homeland security partners, to provide the information 
needed to make critical decisions during crises. Initially, DHS created 
COP templates to address hurricane disasters in time for the 2006 
hurricane season. The tool includes, among other things, current 
summaries of specific situations, the location and operational status 
of critical infrastructure, media reports, and streaming video from the 
field that provides a real-time picture of developments, especially at 
an incident site, to enhance situational awareness. DHS also has 
created COP Training Teams that provide training and technical support 
to DHS components, and other partners. DHS said training was provided 
to 17 states on the Gulf and East coasts in 2006, the most hurricane-
prone areas of the country. However, DHS is still resolving operational 
issues with COP. For example, DHS reported in January 2007 that a 
comprehensive backup capability for the COP was under development but 
that the Department was prepared for contingencies related to power, 
telecommunications and server outages. DHS also reported that it 
continues to develop information requirements for use in other 
scenarios, such as pandemics and incidents involving nuclear devices, 
among others, as well as to further refine the system.
    DHS officials said they have created several new working groups and 
organizational entities within the Operations Directorate or National 
Operations Center aimed at improving capabilities. The new units 
include:
        <bullet> Senior Leadership Group. It is comprised of key DHS 
        officials across the major components and intended to provide a 
        forum for the Secretary to obtain critical advice from those 
        with the most direct incident management responsibilities, to 
        communicate decisions, to facilitate the integration and 
        coordination of intradepartmental operational missions, 
        activities, and programs at the headquarters level; and to 
        assist in resolving intradepartmental issues. The group 
        convenes as necessary, such as during an actual incident or 
        major exercise, although the Secretary or the Director of 
        Operations Coordination may convene the group at any time.
        <bullet> Incident Management Planning Team--consisting of 53 
        members drawn from 22 DHS components, 25 partner departments or 
        agencies, and the American Red Cross--that has begun the 
        coordination of existing plans and the use of resources for 
        domestic disasters. According to DHS officials, the team is 
        developing plans for the most likely, and then the most 
        dangerous, of the National Planning Scenarios--the 15 all-
        hazards planning scenarios for use in national, federal, state, 
        and local homeland security preparedness activities that are 
        representative of the range of potential terrorist attacks and 
        natural disasters and the related impacts that face our nation.
        <bullet> Disaster Situational Awareness Teams. These teams are 
        to be comprised of field staff from Immigrations and Customs 
        Enforcement since they can be more easily deployed and are to 
        be at a site within 24 hours to provide situational awareness 
        reporting and other assistance.
        <bullet> Crisis Action Teams. These multi-agency teams, whose 
        membership overlaps in part with the new planning teams, are to 
        provide interagency incident management capabilities and to, 
        among other things, recommend courses of action, help 
        prioritize incidents and resources, and serve as a central 
        point for information collection, evaluation, and coordination, 
        especially for complex or multiple incidents.
    Finally, DHS has completed a study of its operational capabilities 
and gaps to guide its future mission and initiatives. Called the 
Operations Mission Blueprint, DHS operations staff said the results are 
still under review; therefore, that they could not provide us with a 
copy. Part of this study includes a plan to consolidate DHS operations 
centers in headquarters and its components in a facility located at the 
St. Elizabeth's West Campus in Washington, D.C.\13\ The plan cites a 
number of organizational benefits to collocating facilities, including 
enhancing collaboration by bringing together a large number of DHS 
executives and line employees currently dispersed across the region.
---------------------------------------------------------------------------
    \13\ Department of Homeland Security, National Capital Region 
Housing Master Plan: Building a Unified Department, Washington D.C., 
October 2006.
---------------------------------------------------------------------------
    While DHS provided us with background briefings, some supporting 
documentation, and some after action reports on the initiatives we have 
outlined, we did not evaluate the extent to which they have been 
implemented and are effective at addressing the problems Katrina 
identified, in part because they are so new and in some cases still 
concepts. DHS officials themselves, however, identified some challenges 
and next steps in implementation. These include, for example, 
continuing to outreach to and better integrate DHS components as well 
as other stakeholders in planning and implementation, such as state, 
local, and private sector partners.
    As to this latter challenge, DHS has tested several of its new 
initiatives, such as the COP, through daily use, as well as interagency 
exercises. For example, through an exercise conducted last year, the 
National Operations Center identified opportunities to improve 
implementation of the COP. DHS recently completed two other exercises 
and plans additional exercises this fall and over the next two years 
that can also provide helpful performance information. We agree that 
the use of exercises, and more importantly the after-action and lessons 
learned analyses and recommendations to fix identified problems, are 
good methods to help determine how well initiatives are working, 
especially when testing under live, real-time circumstances is not 
possible.
    Complementing this with more systematic performance measures and 
ways to obtain feedback from key users and stakeholders on how well the 
initiatives meet their needs would also be helpful. For example, 
officials noted that there are systematic methods for evaluating what 
has been achieved. The objectives of the HSIN implementation include 
providing measurable performance metrics as well as obtaining 
stakeholder feedback through its new Advisory Committee, when 
constituted. Implementation of the system is to be based on both agency 
and industry best practices. Following through on implementation of 
these types of measures and feedback loops is particularly important 
for state and local stakeholders, as Katrina demonstrated, since they 
are the first responders and key to effective incident response 
planning and implementation.

Concluding Observations
    Our prior work demonstrated that the three component multi-agency 
operations centers we reviewed have a critical mission to meet for 
their own agencies, as well as a common mission to support the National 
Operations Center, the key hub for sharing information on nationwide 
situational awareness and for coordinating federal support during major 
disasters. Centers rely on staff from multiple agencies to achieve 
their missions, so it is important that the centers can collaborate 
effectively among the agencies within a center. Our work provides a 
blueprint of key practices the centers could use to achieve this 
collaboration, and also demonstrates that they have opportunities to 
implement these practices more extensively. The payoff can include 
assurance that all staff clearly understands roles and 
responsibilities, especially during a crisis, and that centers have a 
common goal for achieving their joint missions, the right staff from 
across agencies to do so, and ways to evaluate results achieved and 
implement needed corrective actions. In turn, this can better position 
DHS, and the nation, to prevent, mitigate and respond to a critical 
event, help the Congress to fulfill its oversight and homeland security 
responsibilities, and help the department better integrate into a 
cohesive unit. While we understand that the Directorate does not 
control component centers and is reluctant to issue guidance to them on 
ways to implement these best practices as we recommended, we continue 
to think that the Directorate can reinforce these practices through 
such guidance and example, not only as it works with external 
stakeholders, but also with its internal component centers. We believe 
the Directorate could be more proactive to accelerate implementation so 
that centers achieve anticipated benefits sooner given current 
priorities and available resources.
    We also understand that the department set its priorities to first 
focus on fixing the problems Katrina exposed, as the Congress and 
Administration tasked, and recognize that such focus has, and will 
continue to be, a key driver in effecting change to improve situational 
awareness and incident management capabilities at DHS. We also believe 
that the initiatives DHS is implementing in response appear to be the 
proper steps moving forward, given that they focus on better planning 
for disaster response and better information sharing, as well as 
include the necessary key players. However, while these initiatives are 
aimed at putting the right players, processes, protocols, and practices 
in place, both we and the department recognize that implementation is 
early, measures of effectiveness must still be put in place, and 
challenges must be overcome.
    Mr. Chairman and members of the subcommittee, this completes my 
prepared statement. I would be happy to respond to any questions that 
you or any members of the subcommittee may have at this time.

    Mr. Perlmutter. Thank you. I have been a little lax with 
the time, but that is because there are only two of us here, so 
I figure let you finish. So thank you. But try to keep your 
remarks within the 5 minutes, but as you can see, there is 
latitude as well.
    Thank you very much, Ms. Larence.
    Now, Colonel Ebbert for your testimony.

  STATEMENT OF COLONEL TERRY J. EBBERT, USMC, RET., DIRECTOR, 
  OFFICE OF HOMELAND SECURITY AND PUBLIC SAFETY, CITY OF NEW 
                            ORLEANS

    Colonel Ebbert. Mr. Chairman and committee members, it is a 
pleasure to appear today before this committee. I am currently 
serving as the director of Homeland Security for the city of 
New Orleans. My tenure predates Katrina and includes nearly 2 
years of recovery since the storm.
    Your discussion today on maintaining a common operating 
picture at every level of government during emergency response 
is clearly vital, as situational awareness is the foundation of 
success in responding to major disasters.
    The failures of having accurate situational awareness had a 
negative impact on initial response to Katrina. Its shortfalls 
have been well documented, so there is little value in 
returning to the days of late August 2005. My thoughts are to 
the improvements made and the challenges still facing all of us 
who have the responsibility to respond to major emergencies.
    The topic areas important to situational awareness are: 
one, communications; two, mission and plans; three, logistics; 
and four, command, control and coordination.
    The foundation of multiple layered situational awareness is 
good communication. This encompasses personal face-to-face, 
voice and data communications. One of the difficult issues of 
poor communications during Katrina has been addressed in 
Southeast Louisiana with the operational testing of our new 
Region I interoperable radio system. We are one of the only 
major urban areas with a shared radio system. We are able to 
talk across six parishes with over 40 local, state and Federal 
agencies on one shared system. No agency owns the system and it 
is managed by a governing board made up of one member from each 
of the parishes and one state representative.
    I want to single out Secretary Chertoff for his grant and 
contract technical support. Without his support and FEMA loaned 
radios, this system would never have been deployed. We truly 
have one of the finest systems in the Nation and it has already 
improved our situational awareness on daily issues, major 
events, and emergency exercises. This new tool, along with 
additional Federal, state and FCC backup, has ensured that we 
will be able to communicate in a future crisis.
    Formal local, state and Federal emergency plans form an 
important leg in our ability to maintain a common operating 
picture throughout emergencies. If everyone understands the 
mission and how they intend to carry it out, constant 
conversation is not required. All of our plans at every level 
have been improved over the last 3 years. Technical assistance 
through the Department of Homeland Security contractors has 
been a tremendous assistance to me and my staff because they 
brought with them the understanding of the requirements of all 
levels of government.
    Areas which need continued improvement are: understanding 
at every level of government what capabilities-based planning 
is all about; and two, the need for increased emphasis on 
mission--which I qualify as risk management--versus compliance 
or risk avoidance, and the importance of those in planning for 
initial response.
    The third leg of obtaining a common operating picture is 
the understanding that this is a logistics war. We will win or 
lose on our ability to save lives, stabilize infrastructure, 
and provide security based on our ability to manage people and 
material. We have no national logistics system which ties 
together local, state and Federal agencies.
    It is a matter of concern that this nation has not 
developed such a system. If we created this capability, 
everyone at every level would have at their fingertips a 
complete status of all logistics. This information is the vital 
situational awareness upon which emergency managers must have 
to make decisions if we are to prevent failure during the next 
major emergency response. We have a logistics system in the 
military and we must develop a counterpart for universal use in 
civilian response.
    Command and control up the chain of command is a somewhat 
hazy subject for those of us at the local level. We have 
expended major resources to ensure that we stay current with 
the national incident management system. This has assisted 
greatly in improving our command coordination at every level. 
It is a sound foundation that has already produced a much 
improved staff functioning.
    We utilize incident command, unified command, and area 
command, but when we get to the senior level at the joint field 
office, it shifts to a coordination agency. In major disasters, 
the mission requirement is greater than the capacity to 
respond. I don't believe that situation can be coordinated. 
Somebody has to be in charge and somebody has to be able to 
direct.
    In closing, I would like to state that the Department of 
Homeland Security has continued to support Southeast Louisiana 
and we are improving in every capacity. I do think we must work 
together to solve the critical issues I addressed earlier. We 
are a great nation with the intellectual and material capacity 
to provide for the safety and security of our citizens.
    Thank you very much for the honor of testifying today.
    [The statement of Colonel Ebbert follows:]

         Prepared Statement of Col Terry J. Ebbert, USMC (ret)

    Mr. Chairman and Committee members, it is a pleasure to appear 
today before the Committee on Homeland Security. I am COL Terry J. 
Ebbert, USMC (Ret) and currently serve as the director of Homeland 
Security for the City of New Orleans. I have the responsibility for the 
Police Department, Fire Department, Office of Emergency Preparedness 
and during emergencies Emergency Medical Services (EMS). My tenure 
predates Katrina and includes nearly two years of recovery since the 
storm. Your discussion today on maintaining common operating picture at 
every level of government during emergency response is clearly vital, 
as situational awareness is the foundation of success in responding to 
any major disaster.
    The failures of having accurate situational awareness had a 
negative impact on initial response to Katrina. Its shortfalls have 
been well documented so there is little value in returning to the days 
of late August 2005. My thoughts are to the improvements made and the 
challenges still facing all of us who have the responsibility to 
respond to major emergencies.
        The topic areas important to Situational Awareness are:
                1. Communications
                2. Mission/Plans
                3. Logistics
                4. Command, Control and Coordination
    The foundation of multiple layered situational awareness is good 
communication. This encompasses personal face-to-face, voice and data. 
One of the difficult issues of poor communications during Katrina has 
been addressed in Southeast Louisiana with the operational testing of 
our new Region 1 Interoperability Radio System. We are one of the only 
major urban areas with a shared radio system. We are able to talk 
across six parishes with over 40 local, state and federal agencies on 
one shared system. No agency owns the system and it is managed by a 
governing board made up of one member from each of the parishes and one 
state representation.
    I want to single out Secretary Chertoff for his grant and contract 
technical support. Without his support and FEMA loaned radios, this 
system would never have been developed. We truly have one of the finest 
systems in the nation and it has already improved our Situational 
Awareness on daily issues, major events and emergency exercises. This 
new tool along with additional federal, state and FCC backup has 
ensured we will be able to communicate in a future crisis.
    Formal local, state and federal emergency plans form an important 
leg in our ability to maintain a common operating picture during 
emergencies. If everyone understands each other's mission, and how they 
intend to carry it out, constant conversation is not required. All of 
our plans at every level have improved over the last three years. 
Technical assistance through Department of Homeland Security 
contractors has been a tremendous assistance because these contractors 
understand the requirements of all levels of government. Areas, which 
need continued improvement, are:
        <bullet> Understanding of ``Capabilities Based Planning''
        <bullet> Need for increased emphasis on Mission (Risk 
        Management) vs. Compliance (Risk Avoidance) in planning for 
        initial response
    The third leg of obtaining a common operating picture is the 
understanding that emergency response is a ``Logistics War''. We will 
win or lose our ability to save lives, stabilize infrastructure, and 
provide security based upon our ability to manage people and material. 
We have no national Logistics system, which ties the local, state and 
federal agencies together. It is a matter of concern that this nation 
has not developed such a system. If we created such a capability, every 
one at every level would have at their fingertips, a complete status of 
all logistics. This information is the vital situational awareness upon 
which emergency managers must have to make decisions if we are to 
prevent failure, during the next major emergency response. We have a 
military logistics system and we must develop a counterpart for 
universal use in civilian response.
    Command and Control up the chain of command remains a hazy subject 
for those of us at the local level. We have expended major resources to 
ensure that we stay current with the National Incident Management 
System (NIMS). This has assisted greatly in improving our command 
coordination at every level. It is a sound foundation that has already 
produced a much improved staff functioning relationship. I believe we 
still have a shortfall in cases of catastrophic incidents. We utilize 
incident command, unified command, area command, but when we get to the 
senior level (Joint Field Office) staff, it shifts to a coordination 
agency. In major disasters, the mission requirement is greater than the 
capability. I don't believe that such a situation can be 
``coordinated'', someone has to have the power to ``direct''. Someone 
has to be in charge.
    In closing, I would like to state the Department of Homeland 
Security has continued to support Southeast Louisiana and we are 
improving in every capacity. I do think we must continue to work 
together to solve the critical issues addressed earlier. We are a great 
country with the intellectual and material capacity to provide for the 
safety and security of our citizens. Thank you very much for the honor 
and opportunity to address this committee.

    Mr. Perlmutter. Thank you, Colonel.
    And now we will turn to Mr. Darnell for his testimony.

 STATEMENT OF DARRELL DARNELL, DIRECTOR, DISTRICT OF COLUMBIA 
       HOMELAND SECURITY AND EMERGENCY MANAGEMENT AGENCY

    Mr. Darnell. Good afternoon, Mr. Perlmutter, Ranking Member 
Rogers. I am pleased to have the opportunity to testify before 
you today about the District of Columbia's perspective on the 
extent to which the U.S. Department of Homeland Security has 
improved its ability to maintain situational awareness since 
Hurricane Katrina, as well as the district's efforts to 
establish and maintain situational awareness and create a 
common operating picture.
    In the almost 6 years since the terrorist attacks on the 
Pentagon and the World Trade Center, the district and the 
national capital region have worked together, along with our 
Federal partners, to ensure that our city and our region are 
among the more prepared in the nation. We have responded by 
implementing planning, training and exercise activities that 
bring together district, Federal, state and local government 
entities to create a coordinated prevention, protection, 
response and recovery structure.
    The uniqueness of the national capital region demands 
coordination among a large city, two states, multiple local 
jurisdictions, and the three branches of the Federal 
Government. For the district, which functions as a city, a 
state and a county, this means developing coordination between 
the district and its neighboring states of Maryland and 
Virginia, between the district and the multiple jurisdictions 
of the NCR, as well as between the district and the multiple 
Federal agencies located within the city.
    This routine systematic collaboration is essential to the 
NCR on a day-to-day basis and absolutely critical to successful 
response to a major event on the scale of Hurricane Katrina. As 
part of our commitment to collaboration and coordination, NCR 
leaders established a senior policy group to lead decision 
making and coordination between local and state governments, as 
well as the Federal Government.
    This group works with our chief administrative officers who 
represent local government leadership to provide a coordinated 
and institutionalized process for defining and meeting needs 
across the region.
    The District of Columbia employs a number of interconnected 
systems to achieve and maintain situational awareness and 
establish a common operating picture with its regional 
partners, including the Federal Government. As a starting 
point, information flows into our EOCs, our emergency 
operations centers, through 911 systems and a variety of other 
methods, including a system that has been adapted from a civil 
defense application to natural hazards and terrorism warnings 
and alerts.
    The National Warning System, or NAWAS, is a 24-hour 
continuous private line telephone system that links Federal, 
state and local EOCs and was developed in the 1950's to warn of 
an imminent enemy attack or accidental missile launch in the 
U.S. NAWAS is now used routinely to convey information about 
natural and manmade hazards, as well as to coordinate responses 
to day-to-day events.
    NAWAS is comprised of segments and the local portion is 
known as WAWAS or the Washington Area Warning System. DC's 
homeland security and emergency management agency serves as a 
network control for all users in the national capital region, 
and coordinates all requests for the addition of warnings to 
the system. As such, the district serves as both a hub and a 
conduit of information between and among states and 
jurisdictions across the nation, as well as the Federal 
Government.
    My agency, HSEMA, and the surrounding states, jurisdictions 
and Federal partners, use WAWAS on a daily basis, demonstrating 
its worth while simultaneously preparing every day for an event 
as devastating as Hurricane Katrina.
    Another piece of the puzzle, and one implemented after 
August 2005, is WebEOC. WebEOC is a tool designed to achieve a 
common operation picture among diverse agencies and 
jurisdictions. All of the NCR jurisdictions, as well as several 
dozen Federal agencies, including the DHS, DHS's FEMA, the 
United States Secret Service, and the Coast Guard, have joined 
the network and are able to quickly and easily share 
information in real-time.
    WebEOC users have the option to post information relevant 
to the region to a common page that participant EOCs can all 
see. This system is the primary vehicle for sharing information 
and achieving situational awareness in the national capital 
region on a daily basis.
    Finally, the district is in the process of establishing a 
fusion center for information sharing and analysis. The 
ultimate goal of the fusion center will be to provide a 
mechanism where law enforcement, public safety and private 
partners can come together with a common purpose and improve 
the ability to safeguard our homeland and prevent criminal 
activity. By routinely analyzing disparate pieces of 
information, the fusion center will be a major contributor to 
enhanced situational awareness and achieving a common operating 
picture.
    The response to Hurricane Katrina exposed a number of areas 
for improvement at all levels of government, even for those of 
us who were tangentially involved. Since that time, we have 
worked closely with DHS to close gaps and improve existing 
prevention, protection, response and recovery protocols. In an 
effort to work closely with DHs to embrace the lessons learned 
from Hurricane Katrina, three successes stand out: full 
staffing of personnel in FEMA region III and in the Federal 
coordinating officers corps, as well as ongoing revisions to 
the national response plan.
    To that end, we in the national capital region are pleased 
to see FEMA's region III headquarters fully staffed and have a 
full complement of FCOs. We have been working closely with our 
DHS partners to refine plans and procedures and ensure that our 
staffs are trained appropriately and participate in regular 
exercises.
    I have more to say, but my time is up. Thank you.
    Mr. Perlmutter. If you would like an additional minute, 
please go ahead.
    Mr. Darnell. Just 1 minute. Thank you.
    While we have noticed improvements since the National 
Operations Center was established to coordinate and integrate 
the national response and provide a common operating picture, 
we believe there is still room for progress.
    One of the early challenges in homeland security in 
general, and with situational awareness in particular, was the 
lack of information flow between the Federal Government and 
state and local governments. The dearth of information most 
acutely affected the district as the seat of the Federal 
Government and the national capital region, home of the 
numerous Federal agencies.
    While the reluctance to share information is gradually 
being overcome, we are now facing a different challenge: that 
of information redundancy. We often receive information from 
multiple sources within DHS, which can lead to information 
overload.
    Since the initial and arguably most difficult aspect of the 
information sharing challenge has been addressed, we are 
looking forward to working with our Federal partners to 
establish guidelines and protocols to streamline the flow of 
information. We believe minimizing redundancy and ensuring the 
accuracy of the information are the essential goals that we 
should be trying to achieve.
    While achieving situational awareness relies heavily upon 
established personal relationships, practice, policies and 
procedures, we are all dependent upon technology to enable 
efficient and effective information sharing.
    To that end, it would be helpful for DHS to continue to 
work toward establishing guidelines and criteria for 
interoperable communications technology. While the authorized 
equipment list and the standardized equipment list are useful 
tools, an evaluation of continually evolving technology--sort 
of a Consumer Reports-like approach--would be invaluable.
    Further, this availability of guidelines and resulting 
research and analysis would encourage consumers at the state 
and local levels to invest in technology that enables 
interoperability between and among jurisdictions, states and 
the Federal Government.
    I would like to thank you for this opportunity to appear 
before you today on this important issue. I am available for 
any questions that you may have. Thank you for the additional 
time.
    [The statement of Mr. Darnell follows:]

                Prepared Statement of Darrell L. Darnell

    Good morning, Chairman Carney and members of the subcommittee. I am 
Darrell L. Darnell, Director of the District of Columbia Homeland 
Security and Emergency Management Agency (HSEMA). I'm pleased to have 
the opportunity to testify before you today about the District of 
Columbia's perspective on the extent to which the U. S. Department of 
Homeland Security has improved its ability to maintain situational 
awareness since Hurricane Katrina as well as the District's efforts to 
establish and maintain situational awareness and create a common 
operating picture.
    HSEMA's mission is to administer a comprehensive, community-based 
emergency management program in partnership with residents, businesses 
and visitors to the District of Columbia. The goal is to save lives, 
protect property and safeguard the environment.
    I have 30 years of military, federal and private sector experience, 
including positions at the U.S. Department of Justice's Office for 
Community Oriented Policing Service (COPS), and at the Department's 
Office for State and Local Domestic Preparedness Support (OSLDPS). I 
also have served as Director of the U. S. Department of Homeland 
Security's (DHS) Headquarters Operational Integration Staff's 
Preparedness Division. Additionally, I was a 2006 Senior Fellow at the 
George Washington University Homeland Security Policy Institute.
    Since assuming leadership of HSEMA on March 19 of this year, I have 
been involved in a broad range of activities, including strengthening 
relationships with community leaders and members of the private sector 
as well as continuing to work with our regional and federal partners to 
ensure that the District and all of the stakeholders in the National 
Capital Region (NCR) maintain the level of cooperation and 
collaboration that has enabled us to successfully address the myriad 
public safety and preparedness issues we face in the NCR.

Collaboration and Coordination in the National Capital Region
    The National Capital Region is composed of the District of 
Columbia; Montgomery and Prince Georges counties in Maryland; 
Arlington, Fairfax, Loudoun and Prince William counties in Virginia; 
and all cities in Maryland or Virginia within those counties.
    In the almost six years since the terrorist attacks on the Pentagon 
and the World Trade Center, the District and the NCR have worked 
together along with our federal partners to ensure that our city and 
our region are among the most prepared in the nation. We have 
recognized the unique challenges resulting from living in our target-
rich region and we have responded by implementing planning, training 
and exercise activities that bring together District, federal, state 
and local government entities to create a coordinated prevention, 
protection, response and recovery structure.
    In August 2002, the U.S. Office of Homeland Security, the Mayor of 
the District of Columbia and the governors of Maryland and Virginia 
convened a homeland security summit to bring together local, state, 
regional and national leaders in the NCR to announce eight commitments 
to action that had been developed and agreed upon by senior-level 
federal officials, the mayor and the two governors.
    The eight commitments are:
        <bullet> Citizen involvement in preparedness;
        <bullet> Decision-making and coordination;
        <bullet> Emergency protective measures;
        <bullet> Infrastructure protection;
        <bullet> Media relations and communication;
        <bullet> Mutual aid;
        <bullet> Terrorism prevention; and
        <bullet> Training and exercises.
    In the five years since the summit, the NCR and its federal 
partners have been successful in realizing many of the goals outlined 
in these commitments. Of particular relevance to today's discussion is 
commitment two: decision-making and coordination.
    The uniqueness of the NCR demands coordination among a large city, 
two states, multiple local jurisdictions and the three branches of the 
federal government. For the District, which functions as a city, a 
state and a county, this means developing coordination between the 
District and its neighboring states of Maryland and Virginia, between 
the District and the multiple jurisdictions of the NCR as well as 
between the District and the multiple federal agencies located within 
the city. This routine, systematic collaboration is essential to the 
NCR on a day-to-day basis and absolutely critical to successful 
response to a major event on the scale of Hurricane Katrina.
    As part of the NCR commitment to collaboration and coordination, 
the NCR leaders established a Senior Policy Group to lead decision-
making and coordination between local and state governments, as well as 
the federal government. This group works with the region's Chief 
Administrative Officers, who represent local government leadership, to 
provide a coordinated and institutionalized process for defining and 
meeting needs across the region.
    Specific to situational awareness, the Council of Governments' 
Emergency Managers Committee established a subcommittee known as the 
NCR Operations Center Coordination Group in August 2006. In addition to 
the NCR jurisdictions, current membership includes DHS and the 
Department of Defense's U.S. Army Military District of Washington/
Commander, Joint Force Headquarters-National Capital Region. Through 
this standing body, the practitioners at the state, local and federal 
levels regularly seek ways to enhance information sharing and 
collaboration. Since the technological impediments to information 
sharing have largely been conquered, this body has turned its attention 
to establishing common agreements between Emergency Operations Centers 
(EOCs) about what is expected in an incident and ensuring verification 
and dissemination processes.
    This subcommittee and other bodies have worked continuously to 
achieve the ultimate goal of this systematic, day-to-day coordination: 
situational awareness that leads to a common operating picture among 
all key stakeholders. As such, achieving and maintaining situational 
awareness has been an area of focused, dedicated effort since 2002. In 
2005, Hurricane Katrina provided an unnecessary reminder of the 
criticality of the efforts to routinely share information to establish 
a common operating picture. Similarly, we have worked with our federal 
partners to avoid situations where errant aircraft may be shot down 
within the District borders but District officials not notified and 
where federal facilities such as the Capitol are evacuated without 
notification of District officials. While isolated incidents have 
proved a challenge, on the whole, the District, the National Capital 
Region and DHS have made great progress toward the goal of achieving 
and maintaining situational awareness.

Achieving Situational Awareness
    The District of Columbia employs a number of interconnected systems 
to achieve and maintain situational awareness and establish a common 
operating picture with its regional partners, including the federal 
government. As a starting point, information flows into EOCs through 
911 systems and a variety of other methods, including a system that has 
been adapted from a civil defense application to natural hazard and 
terrorism warning and alerts. The National Warning System (NAWAS), a 
24-hour continuous private line telephone system that links federal, 
state and local EOCs, was developed in the 1950s to warn of an imminent 
enemy attack or accidental missile launch on the U.S. NAWAS is now used 
routinely to convey information about natural and man-made hazards as 
well as to coordinate responses to day-to-day events.
    NAWAS is comprised of segments, and the local portion is known as 
WAWAS, the Washington Area Warning System. DC's Homeland Security and 
Emergency Management Agency serves as the network control for all users 
in the NCR and coordinates all requests for the addition of warnings to 
the system. As such, the District serves as both a hub and conduit of 
information between and among states and jurisdictions across the 
nation as well as the federal government. HSEMA--and the surrounding 
states, jurisdictions and federal partners--use WAWAS on a daily basis, 
demonstrating its worth while simultaneously preparing every day for an 
event as devastating as Hurricane Katrina.
    Another piece of the puzzle--and one implemented after August 
2005--is a tool designed to achieve a common operating picture among 
diverse agencies and jurisdictions called WebEOC. All of the NCR 
jurisdictions, as well as several dozen federal partners--including 
DHS's FEMA, the U.S. Secret Service, and the Coast Guard--have joined 
the network and are able to quickly and easily share real-time 
information. WebEOC users have the option to post information relevant 
to the region to a common page that participant EOCs can see. This 
system is the primary vehicle for sharing information and achieving 
situational awareness in the National Capital Region on a daily basis.
    While WebEOC is used throughout the region for day-to-day 
operations, it can provide a specific forum for collaboration during a 
major event. Specific agencies and jurisdictions are granted access to 
a customized site where event-specific information is exchanged among 
those with a need to know, enhancing capability while protecting 
sensitive information.
    Expanding beyond the EOCs, information is shared widely through the 
Regional Incident Communication and Coordination System (RICCS), which 
is used to provide immediate text notification and update information 
during a major crisis or emergency to those not physically located in 
an EOC. RICCS provides alerts, notifications, and updates via email, 
cell phone, pager, and wireless device. RICCS ensures that situational 
awareness is not limited to those in command centers and, by including 
key players in the field, broadens the exchange of information.
    An additional, crucial element of situational awareness is public 
messaging. Because of the unique relationship between the National 
Capital Region and the federal government, managing public information 
in a way that ensures adherence to the joint information system is 
essential. Regional Emergency Support Function 15 (RESF-15) includes 
public information officers from NCR jurisdictions as well as 
representatives from DHS and other regional stakeholders such as 
Washington Metropolitan Area Transit Authority (WMATA), the American 
Red Cross and the Board of Trade.
    The DHS Office of Public Affairs has provided RESF-15 members with 
key contact information and initial emergency coordination procedures 
for use during incidents and emergencies of all types. Additionally, 
Public Information Officers (PIOs) have access to the State Incident 
Communications Conference Line (SICCL), an emergency line maintained by 
DHS to share public information with all states.
    As part of the effort to promote a unified public message 
throughout the region, members of RESF-15 have created a virtual joint 
information system that allows them to share information and formulate 
messages collectively so that the goal of ``one message, many voices'' 
is achieved.
    Finally, the District is in the process of establishing a fusion 
center for information sharing and analysis. The ultimate goal of the 
fusion center will be to provide a mechanism where law enforcement, 
public safety and private partners can come together with a common 
purpose and improve the ability to safeguard our homeland and prevent 
criminal activity. By routinely analyzing disparate pieces of 
information, the fusion center will be a major contributor to enhanced 
situational awareness and achieving a common operating picture. 
Integral to the success of the District's fusion center is close, 
regular collaboration with existing fusion centers in our partner 
jurisdictions in the National Capital Region as well as with DHS's 
National Operations Center.

Working with DHS
    The response to Hurricane Katrina exposed a number of areas for 
improvement at all levels--federal, state and local--even for those of 
us who were only tangentially involved. Since that time, we have worked 
closely with DHS to close gaps and improve upon existing prevention, 
protection, response and recovery protocols. In the effort to work 
closely with DHS to embrace the lessons learned from Hurricane Katrina, 
three successes stand out: full staffing of personnel in FEMA Region 
III and in the Federal Coordinating Officers (FCO) corps as well as the 
ongoing revisions to the National Response Plan.
    In The Federal Response To Hurricane Katrina: Lessons Learned, the 
White House recommends: ``Below the headquarters level within DHS, we 
must build up the Department's regional structures. . .Homeland 
security regional offices should be the means to foster State, local 
and private sector integration.'' To that end, we in the National 
Capital Region have been pleased to see FEMA's Region III headquarters 
fully staffed and have a full complement of FCOs. We have been working 
closely with our DHS partners to refine plans and procedures and ensure 
that our staffs are trained appropriately and are participating in 
regular exercises.
    Since August 2006, DC HSEMA has participated in four exercises with 
DHS that have included enhancing situational awareness and achieving a 
common operating picture as primary objectives. These exercises 
include:
        <bullet> FEMA Region III Hurricane Exercise--May 2006
        <bullet> TOPOFF 4 Command Post Exercise--June 2006
        <bullet> Tactical Communication Interoperability Plan (TCIP) 
        Exercise--September 2006
        <bullet> NCR Regional Response 07--April 2007
    These exercises all proved worthwhile and we look forward to 
continued national-level training and exercise opportunities.

Areas for Improvement
    While we have noticed improvements since the National Operations 
Center (NOC) was established to coordinate and integrate the national 
response and provide a common operating picture, we believe there is 
still room for progress. One of the early challenges in homeland 
security in general, and with situational awareness in particular, was 
the lack of information flow between the federal government and the 
state and local governments. The dearth of information most acutely 
affected the District, as the seat of the federal government, and the 
National Capital Region, as the home of numerous federal agencies. 
While the reluctance to share information is gradually being overcome, 
we are now facing a different challenge: that of information 
redundancy. We often receive information from multiple sources within 
DHS, which can lead to information overload.
    Since the initial--and arguably most difficult--aspect of the 
information-sharing challenge has been addressed, we are looking 
forward to working with our federal partners to establish guidelines 
and protocols to streamline the flow of information. Minimizing 
redundancy and ensuring the accuracy of the information are essential, 
while vetting it and reducing duplication before dissemination are 
ongoing goals.
    While achieving situational awareness relies heavily upon 
established personal relationships, practiced policies and procedures, 
we are all dependent upon technology to enable efficient and effective 
information sharing. To that end, it would be helpful for DHS to 
continue to work toward establishing guidelines and criteria for 
interoperable communications technology. While the Authorized Equipment 
List (AEL) and the Standardized Equipment List (SEL) are useful tools, 
an evaluation of continually evolving technology--a Consumer Reports-
like approach--would be invaluable. Further, this availability of 
guidelines and resultant research and analysis would encourage 
consumers at the state and local levels to invest in technology that 
enables interoperability between and among jurisdictions, states and 
the federal government.
    I thank you for this opportunity to appear before you today on this 
important issue and am available for any questions you may have.

    Mr. Perlmutter. Thank you, Mr. Darnell.
    I would now like to turn to Mr. Walker for your testimony.

STATEMENT OF JAMES WALKER, JR., DIRECTOR, ALABAMA DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Walker. Thank you, Mr. Chairman.
    And a special thank you to Mr. Rogers, not just for the 
important work that you do on this committee, but for the 
leadership that you provide to the citizens of Alabama here in 
the Congress. It is a pleasure to be before you today, sir.
    Situational awareness is really relevant to where you 
stand. I spent 20 years in the United States Army and was 
convinced that a soldier standing in a post somewhere, that the 
rest of the Nation is there to support him, and that he is the 
frontlines for this country. Well, after our country was 
attacked on September 11, 2001, that dynamic changed just a 
bit. The defender of this country is not just a soldier, 
sailor, airman or Marine. It is a police officer, a sheriff's 
deputy, or a firefighter or emergency medical technician, a 911 
operator, and on and on and on.
    So as the director of homeland security for the state of 
Alabama, we are charged with the mission of what is it that we 
are doing to get the right equipment and the right information 
into the hands of the people that are at the tip of the spear.
    I also have the privilege of administering the state 
homeland security program family of grants. The Congress has 
been kind enough to send millions of dollars to the state of 
Alabama. We think we have used it wisely.
    One of the areas where we have seen a sea-change of growth 
in our state is in the area of improving situational awareness, 
and our ability to communicate with one another.
    If you read the 9/11 Commission report, two of the 
hijackers were stopped in a little town in Alabama, but the 
deputy pulled them over had no idea of knowing who they were or 
where they were headed. Situational awareness improvements 
occur when you have a system in Alabama now, where even in 
rural communities, a police officer can make a stop and use his 
personal digital assistant, his BlackBerry, his cell phone or 
any other mode available to him, and know who is facing and who 
that person is, their picture, where they live, their cars that 
are registered, who lives with them, et cetera. That is a sea-
change of information as it relates to situational awareness 
for the cop on the street.
    For his supervisor, it is the ability for that police 
officer to be able to reach him via a reliable radio system so 
that his supervisor then in turn knows what he is faced with. 
So this is the way we back it up from the tip of the spear to 
the state level.
    With our emergency management community, we have a Lotus-
based software called the emergency management information 
tracking system that allows us to keep track of requests from 
our locals so that we know where personnel and resources are in 
the pipeline that can come to support the state.
    So for us, it is the ability of trying to take care of 
ourselves, and then in being able to turn around to a Federal 
partner and say, we can't handle this in Alabama and we need 
your assistance and support.
    One of our newest flagship programs that I would like to 
tell my friend from Louisiana, his state just purchased last 
week, was a program developed in Alabama that is called Virtual 
Alabama. It uses a Google Earth platform.
    What we are able to do, sir, is take visualization 
pictures, GIS data that all counties fly around the country for 
tax parcel records, et cetera, but we are able to take these 
pictures and load them on a license that we have been given by 
Google, where we can firewall it and secure this information. 
We have a picture of what the state of Alabama looks like on 
the ground.
    Once you see that picture, you can start layering and 
tailoring information that is relevant to you in the county. If 
you are a sheriff, it is the location of every registered sex 
offender and whether or not where he is living violates his 
parole by being close to a school or a bus stop or a daycare 
center. If it is a firefighter, it is being able to draw in 
floor plans of schools and buildings, so that when you show up 
on the scene, you know what you are faced with.
    A most recent example was the tornadoes that affected us in 
Enterprise, Alabama. After Hurricane Katrina hit, my governor 
was incredibly frustrated because he wanted to see the pre-
imagery, the imagery of Mobile County before the storm hit and 
mirror it up against the pictures that were taken after the 
storm passed through. We couldn't do that. Had we had that 
information available, using a platform like Virtual Alabama, 
we could have provided assistance to the folks on the ground by 
knowing where their house was, what the tax assessed value, and 
we could start helping these folks get back on with their lives 
earlier.
    Since we have instituted Virtual Alabama, after the tornado 
in Enterprise, we had the before pictures of Enterprise High 
School, and then within 10 hours, we had the Civil Air Patrol 
up with a camera taking pictures and we could overlay the 
before picture with the after picture, and all of the tax data 
and tax records we could put on top, and the FEMA teams that 
come through writing checks can start making an immediate 
difference in the lives of displaced people.
    So it is an incredibly effective tool that really is only 
limited by the imagination of the users. So I can look at you 
and say, look, we are making positive impact in the lives of 
the first responders in our state today, using Virtual Alabama, 
improving our interoperable communications, giving better 
situational awareness to our criminal justice system, but there 
is still lots of work to do.
    So for all of the resources that you provide Alabama to 
tackle these problems, I thank you very much. I would ask you, 
don't stop now. We have more work to do. There is much to be 
done, and I appreciate the opportunity to share with you a 
handful of the things that we are doing in Alabama.
    I look forward to any questions that you might have, Mr. 
Chairman.
    [The statement of Mr. Walker follows:]

               Prepared Statement of James M. Walker, Jr.

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today.
    As Director of the Alabama Department of Homeland Security, one of 
my responsibilities is to administer the State Homeland Security Grant 
Program appropriated by Congress and managed through the U.S. 
Department of Homeland Security. Since its creation on June 18, 2003, 
the Alabama Department of Homeland Security has administered four 
fiscal years of federal homeland security grant dollars totaling $115 
million ($34.5 million in FY03, $36.8 million in FY04, $28.1 million in 
FY05, and $15.6 million in FY06).
    I would like to express my gratitude to the Congress, President 
Bush, and the U.S. Department of Homeland Security for the homeland 
security grants we've received in Alabama. It is my belief the receipt 
and responsible distribution of these grant funds in Alabama has saved 
lives and effectively served our citizens. Thank you for making these 
grants available.
    With homeland security grant dollars and the visionary leadership 
of Governor Bob Riley, Alabama has built 54 regional mutual aid teams 
to provide standardized prevention, response, and recovery 
capabilities. We've improved interoperable communications capabilities 
among public safety disciplines. We've exponentially improved 
information sharing and situational awareness within our criminal 
justice, law enforcement, emergency management, and public safety 
communities. We are able to provide specialized prevention and response 
equipment to any law enforcement agency in the state. We've conducted 
exercises and training events to test our capabilities, and we've built 
teams of stakeholders in each of our 67 counties so that everyone can 
contribute to making our citizens safer.
    The heart of our state homeland security program is having the 
tactics, techniques, and procedures in place that will ensure first 
responders and decision makers have the right information and the right 
equipment available when they need it. Advances in situational 
awareness and asset management have experienced a sea change of 
improvements in Alabama during the past four years.
    Within our response and recovery community, the Alabama Emergency 
Management Agency uses EMITS (Emergency Management Information Tracking 
System), a Lotus Notes-based software.
    EMITS provides a platform local and state agencies use to monitor 
operational information, make requests for personnel and resources, and 
track the status of existing requests for support. Situational 
awareness reports are forwarded to our Regional Operations Center in 
Thomasville, Georgia, daily or as requested. If we anticipate an 
incident cannot be met with existing state resources, a FEMA liaison is 
dispatched to our State Emergency Operations Center to coordinate the 
federal response. We believe it is imperative that the federal 
government not deploy assets or resources without first coordinating 
with the state.
    The ability for public safety officials to reliably communicate 
using radio networks is essential to gaining and maintaining a clear 
situational picture. Alabama has enhanced interoperable radio 
communications by upgrading existing systems and utilizing a common 
bridging platform to connect disparate radio systems across the state. 
Investing in one comprehensive statewide radio system with a common 
platform was not an affordable option for us. Instead, we leveraged 
technology by installing frequency bridges in each of Alabama's 67 
counties. This allows local agencies using different frequency bands to 
communicate. During a large-scale event where local interoperability 
can become overwhelmed, we have positioned eight regional 
communications vehicles throughout Alabama. In addition to having 
bridging technology, these vehicles have satellite communication 
connectivity, Internet access, and streaming video cameras.
    In Alabama we have developed an effective situational awareness 
framework in which to manage public/private sector programs and 
operational data. The program is called Virtual Alabama. It is an 
affordable visualization tool using Google Earth technology that 
employs the power of a secure Internet-based application to make a 
positive, immediate difference to first responders. The advantage to 
our first responder population is that Virtual Alabama is free for 
their use, and inexpensive to the state. Local and state officials can 
layer and tailor secure information about their jurisdictions and feed 
it into a broader database that will give state and federal decision 
makers valuable and timely information.
    With existing state GIS (Geographic Information System) and 
orthophotographic data, we are able to transform massive amounts of 
useful information into a common operational picture. Examples of real-
time applications include emergency evacuation routing, vehicle and 
asset tracking, critical infrastructure mapping, plume modeling, real-
time sensor feeds, real-time streaming video, risk visualization, and 
post-event imagery placed alongside pre-event imagery.
    Virtual Alabama is less than a year old, yet we've already 
incorporated data from more than half of Alabama's 67 counties. To 
date, we have more than 1,085 subscribers using Virtual Alabama, and 
hope to have all 67 counties participating by the end of 2007.
    Finally, Alabama has made remarkable strides toward improving 
information sharing and situational awareness within our criminal 
justice and public safety community. We've wisely invested our LETPP 
(Law Enforcement Terrorism Prevention Program) homeland security grant 
funding to upgrade outdated 1980s-era flat file computer architecture. 
Alabama's hard-wired terminal architecture has now been replaced with a 
real-time, 21st century Internet-based system available to all 850 
statewide law enforcement agencies, law enforcement officials, and 
other emergency responders throughout the state. This improved 
capability also includes a homeland security reporting system for 
providing information from the ``cop on the beat'' to our information 
fusion capability. We can take NCIC (National Crime Information Center) 
information and other criminal justice information and transmit it 
electronically to law enforcement officers with data terminals or any 
type of cell phone, Blackberry, or other personal digital assistant 
device. Additionally, this service is free of charge to local law 
enforcement and encourages their participation in sharing, gathering, 
and disseminating information.
    In the weeks and months ahead, Alabama will continue to develop and 
identify new requirements and systems to better serve our citizens. 
However, we must be able to rely upon federal assistance via the State 
Homeland Security Grant Program to further our efforts. We've made 
great strides, but important work remains.
    Thank you again for the privilege of appearing before you. I look 
forward to addressing any questions you may have.

    Mr. Perlmutter. Thank you, Mr. Walker.
    I thank all the witnesses for their testimony.
    I now remind each member, Mr. Rogers, that he will have 5 
minutes to question the panel. I will begin with my 5 minutes 
of questions.
    I would like to start with the three gentlemen who are in 
charge of the emergency management for their state and their 
city. I will start with you, Colonel. If Katrina were bearing 
down on New Orleans or the Gulf Coast today, what difference 
will we see within our ability to respond?
    Colonel Ebbert. Obviously, we have several areas, one, the 
individual areas and the individual plans which we have worked 
on, which are local, meaning 14 parishes and two states. The 
state of Mississippi is very much involved.
    So the detailed evacuation plans that have been put in 
place that did not exist down to the detail of moving 25,000 
people without the capacity to leave the city is a huge effort 
on the part of the region, as well as the state and the Federal 
Government, with the funding of bus, aviation and rail assets 
to be able to move those people in a 24-to 30-hour block of 
time, is a monumental, a very, very complex plan that we have 
worked on and we scheduled. Last Friday, we just exercised it 
across the parishes, and so we feel comfortable in that 
concept.
    The second thing is the improvement in communications and 
our capacity to talk and communicate, not only with our 
regional areas, but with the state and the state to the Federal 
Government has improved dramatically. We have the advantage of 
being hit once, is you still have a relatively strong 
organization of Federal resources located both in Baton Rouge 
and in the city of New Orleans in the way of FEMA.
    Mr. Perlmutter. Let me ask these two gentlemen if they 
would agree with that.
    You know, if we had another plane flying into the side of 
the Pentagon, how quickly can everybody communicate?
    Mr. Darnell. I think it is dramatically improved since 9/
11, sir. In fact, in our emergency operations center, we have a 
direct line with the FAA towers at Reagan National Airport, 
Dulles, BWI, and also contact with some of the smaller airports 
in the region. So that information, say, for example, if a 
plane gets inside the 25-mile no-fly zone, we immediately have 
that information in real-time as that is coming through those 
towers.
    So we no longer have to wait for the towers to give us a 
call. We are hearing that information so we can begin the 
process of whatever actions we feel we need to take.
    Mr. Perlmutter. Mr. Walker, with your tornadoes, you 
probably have the most recent experience as to how the 
communications works.
    Mr. Walker. Mr. Chairman, 3 years ago a lot of well-meaning 
police officers and fire chiefs around our state had invested 
in radio systems, but they were often disparate systems that 
couldn't communicate. A firefighter couldn't communicate with a 
police officer who couldn't communicate with a sheriff who 
couldn't communicate with the state.
    We have leveraged technology and we put bridging equipment, 
which basically fuses together all of the different radio 
systems in a county that now allows them to speak to one 
another, without buying new radios. It was a cost-effective 
approach. We did it in all 67 of Alabama's counties.
    In addition to that, when you have something happen like a 
tornado, you need some sort of a regional capability because as 
state and Federal assets start arriving on the scene, the 
locals, their system will become overwhelmed. So we have some 
regional communications vehicles. They are Alabama products, 
where we were able to quadruple our capability, have 
streamlining video to the scene, so that my governor can sit in 
his office, if that is where he is, and watch the scene unfold 
on one of his assets, and he doesn't have to rely on cable 
news.
    But the biggest thing for the most recent one was that we 
have become such creatures of habit. Our first responders, they 
have their radios, the ways to communicate. They will tend to 
rely on that dad-gum cell phone. And in the town where this 
tornado hit, there were about 300 hits and hour on the cell 
phone tower, and when the tornado came through, it went to 
about 3,000 an hour. It overwhelmed the system, and there was 
kind of a brain-lock for about 10 to 15 minutes. Nobody knew 
what to do until they said, oh my goodness, I have this radio 
over here and it is working just fine.
    So that is a product of education and training, but the 
systems that we had in place worked, and communication has 
improved. In Alabama, locally we have done well. We still have 
some challenges with agencies that have statewide 
responsibility and our ability to reach outside the region.
    When you look at a multi-state incident like Katrina, what 
we learned was when there is total architecture failure, having 
more satellite communications on the ground made all the 
difference. Because during Katrina, it was those folks that had 
satellite communications who could speak back to areas of 
assistance. If you didn't, you couldn't use a cell phone and 
you couldn't use a radio. So we have made some investments in 
improving our satellite communications.
    Mr. Perlmutter. Last question, for you, Ms. Larence. To 
what extent is information sharing within the NOC compromised 
by this HSIN system and its ongoing problems?
    Ms. Larence. I guess our concern is that recently both the 
intelligence and analysis office and the critical 
infrastructure protection office asked for waivers from HSIN, 
at least for a couple of years. The critical infrastructure 
protection piece is important because that was the link for the 
private sector to report information about the status of 
critical assets around the country into the NOC.
    So we are concerned about to what extent the users are 
hanging in there with the system. We are concerned that one of 
the major challenges the program manager said she continues to 
face is, quite frankly, getting support within the components 
of DHS itself to use the system and support it.
    Mr. Perlmutter. Thank you.
    Now, I recognize the ranking member, Mr. Rogers, for 5 
minutes.
    Mr. Rogers. I thank the chairman.
    I wanted to follow up with Mr. Walker about the 
interoperability. You said you now in all 67 counties have the 
ability for the various first responders to communicate. How 
about across county lines?
    Mr. Walker. The regional commu-van that we have, once they 
arrive on the scene, will provide for that. We still have 
challenges going county to county and building the regions of 
the state. When we started the process, we thought we have got 
to build from the ground up. So we obviously put our emphasis 
on the counties.
    So the counties I believe are in pretty good shape. We have 
two of our 67 counties that require a little bit more love than 
others, so we are struggling through it. But it is bringing 
counties together. We have the capability to do it, but not 24/
7 day to day. We have to get to that point and we are not there 
yet, sir.
    Mr. Rogers. You talked about the Google, the before 
pictures and the after pictures. The before pictures, are those 
pictures that are in the database from tax records? Why would 
there be a picture of Enterprise High School that you could 
pull, unless somebody thought to go and do it before they 
thought a tornado was coming?
    Mr. Walker. One of the things that frustrated our governor 
in Alabama was the millions of dollars that we would spend 
flying the state. Different agencies with planes and 
contractors taking pictures of the state of Alabama, but then 
in a crisis when we needed the pictures, we couldn't get our 
hands on them.
    So the governor says, ``I am not spending another penny 
until I know what we have.'' So he turns to his homeland 
security director as the honest broker and says, ``Look, figure 
out a way to show me what we have, and then we will know how to 
plan forward.''
    So we set out, and I have actually got an honest-to-
goodness rocket scientist on my staff that the Army has loaned 
us from Huntsville. He sat in a room and canvassed the country 
for the best product that is forward-learning.
    That is why we partnered with Google. So what we are able 
to do is the pictures that our counties have, and they all have 
the data. They do it for building roads, keeping track of where 
folks and the growth are, and you capture this on the Google 
Earth platform, and then you have a picture. It may be a year 
old or it may be 2 years old, and then you give it back to the 
county.
    And then you have the most recent data, either at the six-
inch, one-foot, one-meter level, and then when something 
happens, if you are able to go up immediately and capture the 
new pictures, you marry them together and you will know where 
the damage occurred. We even gave a license to the small town 
in Kansas that was 95 percent destroyed, loaded in their before 
pictures and their after pictures, and I think that if you will 
talk to our friends at FEMA, they were much quicker at being 
able to help these folks get checks and get their lives back 
together.
    Mr. Rogers. Mr. Darnell, I was a little concerned when we 
heard our last speaker talk about operational awareness across 
the country, to hear you say that you didn't see that we had 
adequate operational awareness, situational awareness between 
DC and its contiguous states. Did I misunderstand what you were 
trying to communicate?
    Mr. Darnell. I believe so, sir. I believe have situational 
awareness across the jurisdictions that make up the NCR through 
or WebEOC, through my EOC being a central hub for the region, 
and some other systems. I think where we need to improve, quite 
frankly, is with the Federal Government.
    For example, in their COPS, their common operating picture 
system, we are not hooked into that. And being the seat of the 
Federal Government and the Federal agencies in the country, it 
is my hope that DHS would allow us to be a part of that system, 
and currently we are not.
    The second point I would like to make with respect to the 
HSIN system that Mr. DiFalco spoke about, while I think it is a 
good system and has the potential to do a lot of things, I 
think the problem, at least from a state and local perspective, 
or my perspective quite frankly, is that there are a lot of 
different portals on there with a lot of different information. 
So it is not the most user-friendly system that you have, where 
you can go in and really find relevant information very 
quickly.
    I would echo Ms. Larence's comments, being a former DHS 
employee, the challenge really is trying to get those agencies 
within DHS to really take a look at how we can efficiently use 
that system and put relevant information that we can use at the 
state and local level.
    Mr. Rogers. OK. My last question, and my time is about up, 
is you made reference to several successes, but I wanted to say 
you didn't make reference to any glaring deficiencies that 
still remain. You did talk about that there had been a lack of 
info flow, but now there was a redundancy problem. Is that what 
you are making reference to now?
    Mr. Darnell. Yes, pretty much. It sort of manifests itself 
in a lot of different ways. For example, I received six e-mails 
on the same piece of information just prior to coming here from 
DHS. It would be my hope that if we have a National Operations 
Center, as I thought it was designed, that that would really be 
the conduit for information--
    Mr. Rogers. Exactly.
    Mr. Darnell. --that would come out of DHS into our fusion 
centers and our EOCs. But instead, we have a myriad of offices 
out at DHS sending us the same information, and you are almost 
forced to open all of it for fear that you will miss something.
    Mr. Rogers. Thank you.
    Mr. Perlmutter. Thank you, Mr. Rogers.
    And now the chair will recognize the gentleman from 
Louisiana, Mr. Jindal, for 5 minutes of questions.
    Mr. Jindal. Thank you, Mr. Chairman. Thank you also for 
allowing me to participate. I apologize. I have been in and out 
due to other committee responsibilities.
    I have several questions. I am only going to ask one 
because the hour is late. It is, I would thank Terry, the 
colonel, for coming up here to testify. After Hurricanes 
Katrina and Rita struck, it was obvious the response wasn't as 
coordinated and as organized as it could have been. The White 
House issued its own assessment in the Federal response to 
Hurricane Katrina, lessons learned, identifying critical flaws, 
including an absence of regional planning and coordination.
    As the colonel noted, perhaps the problem is not just a 
lack of coordination, but a lack of direction. According to the 
administration's own report, the Department of Homeland 
Security did not maintain the needed personnel or resources in 
its regional offices. This led to reduced communications and 
understanding of on-site needs, further delaying an effective 
response.
    Better planning at a regional level should not just consist 
of forward-leaning coordination between different levels of 
government, but an integrated partnership fostering clear 
communication that would define the point of contact with the 
Department of Homeland Security, the Department of Defense, and 
others states.
    One of the things that was evident to us on the ground was 
that the Coast Guard, which has a robust regional and local 
presence, was very proactive in responding to those storms. One 
of the things I have asked consistently, even before the 
storms, is about the department's plans for implementing its 
regional structure to improve the flow of communications 
between Washington and local emergency management offices.
    I would like the colonel to start with his perspectives on 
how a more robust implementation of the department's regional 
office strategy could be helpful going forward, with future 
storms, future disasters. And if some of the other witnesses 
would like to comment as well, but I would like to give the 
colonel a chance to talk about how a more robust regional 
implementation can be helpful moving forward.
    Colonel Ebbert. I think it is very difficult for the 
Federal Government to have a span of control that is capable of 
dealing with an incident anywhere in the Nation today, because 
basically you have incident command at the lowest level and you 
may have a unified command, an area command, working with the 
state, but when you move to that next level, you get into a 
coordination agency, and coordination to catastrophic response, 
I don't believe, is adequate.
    I think one of the things that is needed is the capability 
to have a presence in the planning, exercising of emergency 
plans across this country, and it cannot be done direct from 
Washington reaching all the way down to a local level, passing 
through the state.
    I believe an analogy I would draw is that when an emergency 
happens, the flow of the Federal Government's response in a 
command and control capacity is to a pickup game with 
contractors and multiple people designated to arrive on the 
scene, introduce themselves to each other, and then try to 
introduce themselves to the local and state agencies. At the 
same time, you are dealing with saving lives, stabilizing 
infrastructure, and trying to provide security.
    So I think we have to create a capacity and capability to 
regionalize at least so you are playing the game with people 
who you know who is their number, and you can't play the Super 
Bowl and draw people out of a hat. Even though they are 
professionals, they have never played together and they don't 
know the game plan.
    So I think the regional approach to regional transportation 
planning, regional sheltering, regional command and control are 
absolutely necessary if we are going to be able to exercise in 
an emergency, a catastrophic one, which by my definition is 
when it is greater than the capacity to respond, you have a 
catastrophic situation and you have to have somebody in charge 
and know how to execute it.
    Mr. Perlmutter. We will take one more pass. I have a 
question for Ms. Larence.
    Your testimony says that the operations directorate has not 
issued guidance to other operations centers to improve 
collaboration. DHS maintains that the operations directorate 
does not have the authority to do so. Who within the department 
has the authority to issue such guidance, if you know?
    Ms. Larence. The centers within the components themselves 
are owned by their parent companies. We understand that. They 
have the unique mission to serve their parent company, a 
tactical mission. But all these centers share a common mission 
with the National Operations Center. The National Operations 
Center depends on the information they are providing for their 
situational awareness.
    So we think that they have an incentive, in fact, to try to 
ensure that these other centers have a standardized way to 
approach communication and information sharing. So all our 
recommendations asked them to do was voluntarily issue guidance 
that the other centers could use to try to ensure this 
consistency. So we disagree that there is really an issue about 
jurisdiction here or controller authority.
    Mr. Perlmutter. OK. The ability that the Office of 
Operations and Coordination should have the authority to kind 
of--
    Ms. Larence. Yes, we were kind of perplexed by their 
response because if they are the Office of Operations and 
Coordination and they are not coordinating the operations 
centers within DHS themselves, then what are they coordinating. 
So, yes.
    Mr. Perlmutter. OK. Colonel, you said something when you 
were talking about you have two roles. You have the mission 
role to act and to move, and then there is always the follow 
up, which is the compliance side, to get everybody to dot the 
i's and cross the t's. Both parts play an important role in the 
government.
    Then you said this is a logistics war and we have no system 
in place. Did I hear you wrong?
    Colonel Ebbert. We don't have, that I am aware of, any 
national logistics system where I, at the lowest level, would 
enter data that would be available at the time I entered it for 
the Federal Government to know that it exists, and a status, 
and we are talking a common operating picture. I believe in 
responding to emergencies.
    This is a war of logistics. It is men and materiel and the 
movement thereof. You don't have a common operating picture, if 
you don't understand all this equipment and resources that you 
are moving around. We need to have a system that I have to 
enter data into, the state has to enter data into, and it is 
consolidated so anybody up the chain or down the chain of 
command knows what is happening in every locale based upon 
their logistic request.
    Mr. Perlmutter. And we don't have that.
    Colonel Ebbert. We don't have that.
    Mr. Perlmutter. It doesn't work with this National 
Operations Center or COP?
    Colonel Ebbert. It doesn't exist today.
    Mr. Perlmutter. OK. Last question. We talked about the 
Virtual Alabama. I used to think it was Sweet Home Alabama. 
Sorry. That is bad.
    [Laughter.]
    I was, as part of a DHS field trip or something, I saw this 
virtual map and you could use it for parade routes and try to 
figure out line of sight, if the president were having his 
inaugural parade, things like that. Is it something that is 
also computer-driven and can give almost a 3-D exposure? I was 
just curious what that was.
    Mr. Walker. Yes, sir. That is actually a new component that 
has come along. We are partnering with Google with it. There 
are some really smart folks out there now and they are able to 
have us look at this topographic data from an oblique angle, 
and also routes, we can do pluming data.
    One of the other fascinating parts of the Virtual Alabama 
is we have cameras. I know Mr. Rogers is a big fan of cameras. 
We have cameras around the state through the Alabama Department 
of Transportation and some of our private sector partners that 
have manufacturing entities and others. If they will allow us 
access to these cameras, we can use Virtual Alabama to access 
cameras with real-time information.
    So the tunnel going into the harbor at Mobile, if you were 
a decision maker, you can be in Montgomery and watch what is 
unfolding. So you can do route planning. You can do plume data 
if there were an explosion. You could take a look at the 
temperature and the wind direction, and know where it is going 
to go. That would give firefighters and police officers the 
ability to know where the evacuation areas are ahead of time.
    These are things that we practice and rehearse. With 
respect to my friend's comment about logistics, in Alabama, it 
is 72-hours. We preposition supplies and we plan for 72 hours. 
We know that the Federal Government is a big battleship, and by 
the time you get it turned in our direction, it is going to 
take a little while. So we plan on being self-sustaining for 72 
hours. We have learned through four hurricanes over the last 3 
years, we have I don't know how many thousands of cots, meals 
ready to eat, ice contracts let, water on standby, warehouses 
full right now.
    So I don't know how ready we are for hurricane season this 
year, but we are pretty doggone ready, but you can't anticipate 
the unforeseen.
    Mr. Perlmutter. My time has expired.
    Mr. Rogers for any further questions?
    I would like to thank the panel for their testimony and for 
responding to our questions. The testimony has been valuable 
for us today and gives us some food for thought.
    Members of the subcommittee, if they have any additional 
questions for the witnesses, will present those to you in 
writing. We ask that you respond to those as expeditiously as 
possible.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 2:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
